<html>
<title> - U.S. SANCTIONS POLICY IN SUB SAHARAN AFRICA</title>
<body><pre>[Senate Hearing 114-745]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-745
 
           U.S. SANCTIONS POLICY IN SUB	SAHARAN AFRICA

=======================================================================

                                HEARING



                               BEFORE THE



                         SUBCOMMITTEE ON AFRICA
                        AND GLOBAL HEALTH POLICY




                                 OF THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 8, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
       
       


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov
                        
                        
                        
                        
                        
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-431 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                        
                        
                        


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




            SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH POLICY

                 JEFF FLAKE, Arizona, Chairman        
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  CHRISTOPHER A. CROSS, Delaware
JOHN BARRASSO, Wyoming               TOM UDALL, New Mexico
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Flake, Hon. Jeff, U.S. Senator From Arizona......................     1

Markey, Hon. Edward J., U.S. Senator From Massachusetts..........     2

Lyman, Hon. Princeton N., Senior Advisor to the President, United 
  States Institute of Peace, Washington, DC......................     5
    Prepared statement...........................................    25

Eckert, Hon. Sue E., Senior Fellow, Watson Institute 
  International and Public Affairs, Brown University, Providence, 
  Rhode Island...................................................     6
    Prepared statement...........................................    29

Moss, Todd, Chief Operating Officer and Senior Fellow, Center for 
  Global Development, Washington, DC.............................     9
    Prepared statement...........................................    41

Brooks-Rubin, Brad, Director of Policy, Enough Project, 
  Washington, DC.................................................    11
    Prepared statement...........................................    43


                             (iii)        

  


                       U.S. SANCTIONS POLICY IN 
                           SUB-SAHARAN AFRICA

                              ----------                              


                        WEDNESDAY, JUNE 8, 2016

                               U.S. Senate,
                             Subcommittee on Africa
                          and Global Health Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
chairman of the subcommittee, presiding.
    Present: Senators Flake [presiding], Markey, and Coons.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Subcommittee on Africa and Global Health will come to order.
    Today, the subcommittee will hear testimony regarding U.S. 
sanctions policy in Africa. Sanctions can either lead to 
successful outcomes or exacerbate the very issues they seek to 
remedy and reflect poorly on those seeking to advance them. As 
with most things, the devil is in the details.
    In my experience, unilateral economic sanctions by 
themselves rarely, if ever, achieve their intended goal. And I 
have been long suspect of unilateral economic sanctions. I have 
witnessed firsthand how nontargeted economic sanctions can 
apply pressure to those who have no direct link to the levers 
of power in a country. Now, looking beyond the issue of 
multilateral versus unilateral economic sanctions, there are 
other factors in play in determining whether or not targeted 
individual sanctions on a country are warranted and are likely 
to be an effective tool. But, right now, the United States has 
targeted individual sanctions in place for nine sub-Saharan 
countries: Burundi, Central African Republic, Cote d'Ivoire, 
Democratic Republic of the Congo, Eritrea, Somalia, Sudan, 
South Sudan, and Zimbabwe. I should say that these are targeted 
individual sanctions on individuals in those countries. We also 
have arms export restrictions in place against most of these 
countries, and enforcement of both these and financial 
sanctions can obviously be a challenge for these African 
countries.
    Today, we aim to step back and explore the effectiveness of 
some of these efforts. We will examine the recent track record 
of sanctions in Africa, when they have proven to be a useful 
tool in achieving our policy objectives, and under what 
circumstances they are falling flat or causing unintended 
consequences. We will look at the relationship between 
sanctions undertaken solely by the United States versus those 
taken in concert with the international community. Finally, I 
hope we will get a better understanding from today's discussion 
of whether we are overusing or underusing sanctions, or the 
threat of sanctions, in Africa.
    We often hear elected officials advocate for the use of 
sanctions as a foreign policy tool. I am rarely among those 
pushing for sanctions. But, as those calls arise, we will all 
benefit from hearing from our witnesses to hear what they have 
to say about sanctions in Africa. This hearing is especially 
timely, considering the calls for sanctions on the DRC that 
have been forthcoming from Congress and elsewhere in previous 
weeks.
    I look forward to hearing the witnesses today. I have met 
with a number of you already and look forward to hearing your 
verbal testimony.
    And, with that, I will turn it over to Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And 
thank you for having such an important hearing.
    Last year, you and I and Senator Coons had the tremendous 
pleasure of accompanying President Obama on his historic trip 
to Kenya and Ethiopia. On that trip, we attended a large public 
event at the African Union in Addis Ababa. Throughout the front 
of that massive auditorium sat many of Africa's heads of state. 
And the President delivered a speech about the responsibility 
those leaders have to build and respect democracy in Africa. He 
reinforced the message he had delivered on his first trip to 
the continent as President, years earlier, that, and I quote, 
``Africa does not need strong men, it needs strong 
institutions.'' As the President spoke, he looked at those 
leaders and told them that, as much as he would like to 
continue in office as President of the United States, the 
Constitution of the United States, like many constitutions in 
Africa and around the world, limits him to two terms. He told 
them that not even he, as President, is above the law. He 
explained that even the President must respect the rules of the 
game, because governance is fundamentally about trust, promises 
made and promises kept between elected leaders and the people 
who elected them. Changing or ignoring those rules risks 
breaking that trust and sending a society towards turmoil and 
instability.
    Many of the leaders in the front rows sat stone-faced and 
silent, not accustomed to such straight talk. If they had been 
the only ones in the room, the silence would have been 
stunning. But, they were not the only ones in the room. You, 
Mr. Chairman, Senator Coons, and I, we saw that packed in all 
the way to the ceiling were ordinary people from around the 
African continent. After they heard President Obama's words, 
they cheered so loudly that it shook the building. The people 
of Africa are the heirs of hundreds of years of exploitation 
and violence, first by colonial powers, and all too often by 
their own leaders, since Africa was decolonized. They are 
people who have been fighting hard against repression and 
corruption, and are now working to build democracies throughout 
the continent. They are counting the promises made about 
freedom and prosperity.
    Two weeks ago, I introduced a resolution calling for 
targeted sanctions in the Democratic Republic of Congo, where 
President Joseph Kabila has been using every tactic at his 
disposal to manipulate institutions, suppress political 
opposition, and delay elections to try to remain in power 
beyond the end of his mandate, a mandate set by DRC's people in 
their own Constitution. For many months, President Obama, 
Secretary Kerry, Assistant Secretary Thomas Greenfield, Special 
Envoy Tom Perriello, and Ambassador James Swann have engaged in 
a determined diplomatic effort to persuade President Kabila to 
commit to stepping aside at the end of this term, as 
specifically required in the Congo Constitution. But, now, with 
just 5 months left until elections are supposed to happen, it 
has become clear that our diplomats need additional tools to 
communicate how seriously the United States views the actions 
of President Kabila and his government, and to demonstrate our 
commitment to the Congolese people.
    Some may ask, Why is this important? Well, you only have to 
look next door and to the wider region to see why it is so 
important. Next door, in Burundi, President Nkurunziza's 
unconstitutional election to a third term last year sparked 
violence that has cost the lives of hundreds, displaced 
thousands, and threatens to reignite ethnic tensions. And it 
does not stop there. This weekend, I read a report about 
Kenya's new mood, describing massive protests that have already 
erupted in anticipation of elections there next year. Amid 
concerns that President Kenyatta has manipulated the electoral 
commission in his favor, Kenyan security forces have once again 
cracked down on protesters and attempted to ban protests. And, 
in direct violation of multiple court rulings and its country's 
constitution, multiple protesters have already been killed, 
stoking a very legitimate fear that 2017 could see a repeat of 
the horrific violence surrounding the elections of 2007.
    So, sanctions in DRC are not only about DRC. President 
Kenyatta will be watching our approach to DRC to see just how 
much he can get away with. For the sake of the people of 
Burundi, DRC, Kenya, and others in the region, I think we have 
to make absolutely clear that the United States stands with the 
people and democracy, and will not tolerate leaders who use 
force or manipulation to hold on to power or break their most 
fundamental promises to their own people.
    Those sanctions, I believe, should be targeted at those 
officials in the Government of DRC who are responsible for 
violence and human rights violations and undermining the 
democratic processes or institutions. I believe such targeted 
sanctions, sanctions specifically designed to avoid negatively 
impacting ordinary Congolese, would make a significant impact 
on Kabila's calculations, going forward, as he comes to realize 
that his actions will have consequences.
    Beyond influencing Kabila's decisions, though, sanctions 
are about making a statement about America's commitment to the 
Congolese people. Sanctions are about making clear to the 
Congolese people that we will not help entrench strong men, but 
will always lend a helping hand to people working to build 
strong institutions and prosperous societies. Sanctions in 
cases like these are an important way in which the U.S. 
communicates to the people in the balcony--Congolese, 
Burundians, Sudanese, Kenyans, and others--that promises made 
must be kept, that we will not help strong men break promises 
to their people.
    I want to thank each and every one of our distinguished 
guests for being here today. And I really want to thank you, 
Mr. Chairman, for having this very important hearing.
    Senator Flake. Well, thank you, Senator Markey.
    Senator Coons, do you have anything to say before we start?
    Senator Coons. I will simply say my thanks to you and to 
the ranking member.
    As someone who also attended that same event, it was a 
memorable event, and I very much look forward to hearing from 
the members of the panel and to engaging in a debate. There is 
relatively little time left for Congress to act in a way that 
would send a clear and strong signal about our intentions and 
our concerns about the DRC and future elections in other 
countries. And it is my hope that, working together, we will 
find a way, following this hearing, to do that in a concerted, 
constructive way.
    Thank you.
    Senator Flake. Thank you, Senator Coons.
    All of us could not be more pleased with the panel that we 
have put together for today's hearing. We wanted to get a range 
of opinion, and we certainly have that, and if you read through 
the testimony and listen to what you will say, people will 
realize what a breadth of experience we have here today.
    We will try to keep it--we have votes coming up at some 
point this afternoon. We have a nominations hearing right 
following this, so we will have to keep pretty close on time, 
so we will ask you to please limit your remarks to 5 minutes, 
and then we will have plenty of time for questions. I will 
introduce all four of you, here, and then quickly go.
    Ambassador Princeton Lyman, Senior Advisor to the President 
of the U.S. Institute for Peace. He has previously served in 
numerous U.S.--or official U.S. capacities, including Special 
Envoy for Sudan and South Sudan and as Ambassador to Nigeria 
and South Africa.
    The Honorable Sue Eckert, Senior Fellow at Brown 
University's Watson Center for International and Public 
Affairs, where she directs the projects on targeted sanctions 
and terrorist financing. She also previously served as 
Assistant Secretary of Commerce of--for Export Administration.
    Dr. Todd Moss is the Chief Operating Officer and Senior 
Fellow at the Center for Global Development. He previously 
served as Deputy Assistant Secretary of State for African 
Affairs, in 2007 to 2008, and is an expert on U.S./Africa 
relations, finance, and development policy.
    Mr. Brad Brooks-Rubin is the Director of Policy at the 
Enough Project. He was previously the Special Advisor for 
Conflict Diamonds at the Department of State and Attorney 
Advisor in the Treasury Department's Office of Chief Counsel, 
Foreign Assets Control, where he advised on sanctions related 
to Sudan, Liberia, DRC, and counterterrorism.
    Thank you for being here. Look forward to the testimony.
    Ambassador Lyman.

  STATEMENT OF HON. PRINCETON N. LYMAN, SENIOR ADVISOR TO THE 
 PRESIDENT, UNITED STATES INSTITUTE OF PEACE, WASHINGTON, D.C.

    Ambassador Lyman. Thank you very much, Mr. Chairman, 
Ranking Member Senator Markey, Senator Coons. Thank you very 
much for this opportunity.
    And I will be expressing views of my own, not those, 
necessarily, of the U.S. Institute of Peace.
    Let me concentrate on three points relative to the issues 
that you have raised.
    First of all, sanctions are a tool, they are not a policy. 
And they do not work very well if they are not part, not only 
of a policy and policy objectives, but are for a broader 
strategy to achieve them. We have cases where sanctions have 
been very important--in Liberia, in Sierra Leone, in Cote 
d'Ivoire--but we have to remember that that was associated or 
complemented by the activities of peacekeepers, a broad 
regional strategy, and other steps to bring about an end to the 
situations on which those were targeted.
    In the DRC, we have a very, very important situation, a 
very delicate one, and a very dangerous one. And I think the 
issue of extending terms is not a question of whether countries 
are entitled to have more than one term, but, when terms are 
extended in ways that are repressive and threaten the stability 
and the peace of the country, they become an issue of peace and 
security.
    What I am afraid of, in the case of the DRC, is that we do 
not have yet the unified international position to pressure and 
get this objective achieved. We have agreement with the 
European Union on the objective, but not necessarily the 
strategy. And the African Union is, at best, divided on this 
question. They stumbled over this same problem in Burundi, and 
they have not come down strongly on the question of the 
President Kabila stepping aside when his term is over in the 
DRC. And that is unfortunate, because you need a combination of 
pressures, but you need also the weight of African opinion, of 
senior leaders, and of neighboring countries. And I think it is 
important to put that strategy together and make it more 
effective in the months ahead.
    In the meanwhile, I would say that the threat of sanctions 
is very important, but I am not sure--and I defer to people 
following this more closely--that exercising them unilaterally 
without agreement with our partners may not be the most 
effective way to go forward.
    The second point that I would make is--and Senator Flake 
alluded to this--is that unilateral sanctions are less 
effective if they are strictly unilateral. If you do not have 
worldwide support or broad international support, it is very 
easy to be--to evade them or to have other countries undercut 
them. But, when you have worldwide support, when you have put 
together a coalition around them, then not only do you have 
more enforcement, but you can draw on the relative skills of 
different entities.
    We are very good at financial and economic sanctions. We 
have a lot of talent and a lot of skill in those. The EU has a 
lot of leverage with their very complex aid and trade 
relationships with Africa, and they--and suspension of those 
benefits is a very powerful instrument. The Africa Union brings 
important political weight to bear. And, of course, they are 
major participants in any peacekeeping operation. So, when you 
have that kind of broad international structure around the use 
of sanctions, they are far more effective.
    The third point I would make--and it is perhaps the most 
controversial--is that sanctions have to--sanctions are good if 
they are aimed at achievable very specific objectives, but it 
is harder to use sanctions to get real, deep political 
transformation in countries and a change in the way countries 
operate, because all rulers who are ruling autocratically see 
that as political suicide, and they will resist the pressures, 
they will go around the sanctions, they will let their 
countries pay a tough price. Targeted sanctions, moreover, go 
at individuals, they do not go at regimes, in general.
    So, the question is, How do you deal with countries like 
Sudan, like Zimbabwe and others, in which fundamental 
transformation is necessary to get both a better--to end the 
conflicts, but also to end the human rights violations? And I 
think it has to be a combination of a long-term strategy of 
engagement, perhaps sanctions layered, but linked to individual 
steps, and building the strong democratic capacities within the 
country. Because, without those, even a change in regime does 
not necessarily produce the peace and democracy you want.
    Let me just finish with an incident I experienced when I 
was Ambassador to South Africa. Nelson Mandela was President. 
And, at that time, Nigeria was ruled by Sani Abacha, a very 
cruel and rapacious leader. So, a group of Nigerian activists 
came to see Nelson Mandela, and they said, ``We need your help. 
We want your support for international oil sanctions on 
Nigeria. You know how sanctions helped you in South Africa, and 
we need them now.'' And President Mandela's response caught him 
off guard. He said, ``Yes, sanctions were helpful, but 
sanctions are not enough if you do not have a strong indigenous 
democratic movement in your country. Otherwise, you will not 
get the outcome you want.'' I think that is an important lesson 
for us as we look at how we get these longer-term changes that 
we need in some of these countries.
    Thank you. And I am happy to answer any questions 
subsequently.


    [Ambassador Lyman's prepared statement can be found in the 
Additional Material Submitted for the Record section of this 
transcript.]


    Senator Flake. Thank you.
    Ms. Eckert.

    STATEMENT OF HON. SUE E. ECKERT, SENIOR FELLOW, WATSON 
     INSTITUTE FOR INTERNATIONAL AND PUBLIC AFFAIRS, BROWN 
              UNIVERSITY, PROVIDENCE, RHODE ISLAND

    Ms. Eckert. Chairman Flake, Senator Markey, and Senator 
Coons, thank you very much for the opportunity to appear before 
you today to discuss the effectiveness of targeted sanctions in 
Africa.
    Due to time constraints and the rich expertise of my fellow 
witnesses, I am going to limit my remarks to focusing on U.N. 
sanctions and the role U.N. sanctions play. This is largely 
based on a new database, both a quantitative and qualitative 
database, looking at the impact and effectiveness of U.N. 
sanctions since they were first imposed in 1990.
    Under Chapter VII of the U.N. Charter, the Security Council 
imposes sanctions to maintain or restore international peace 
and security. And, in general, there are six categories of 
threats that they are most often used for. This is armed 
conflict, in terms of--including support for peace negotiations 
and peace enforcement, terrorism, weapons of mass destruction, 
proliferation, unconstitutional changes of government, 
governance of resources--natural resources--and protection of 
civilians under R-to-P.
    The purpose of these sanctions, contrary to popular 
perception, is not just to coerce a change of behavior, but 
also to constrain access to prescribed activities or finance, 
and also to signal support for an international norm or 
stigmatize the targets. These purposes are not mutually 
exclusively, and most often are done simultaneously. All U.N. 
sanctions entail stigmatizing in some manner.
    You have already laid out the sanctions. There are 
currently--U.N. sanctions--13, of which 8 are country-based 
regimes in Africa. That is Somalia, Eritrea, the DRC, Sudan, 
Libya, Guinea Bissau, Central African Republic, Yemen, and 
South Sudan. While more than 60 percent of U.N. sanctions--8 
out of 13--focus on armed conflict and peacebuilding, sanctions 
focused on the threat of terrorism--for example, al Qaeda, 
ISIL, the Taliban--and the threat of proliferation--North Korea 
and, previously, Iran--receive a disproportionate share of the 
Security Council's attention and resources.
    Just to highlight some research points, U.N. sanctions are 
the majority of the Africa sanctions, but most often, 
particularly in the early days, they were imposed in a less-
than-coherent way, and sanctions, as the Ambassador said, 
substituted for policy. The use of sanctions to demonstrate 
resolve without integrating them into an overall strategy is 
largely ineffective. And, for this reason, it is very important 
that sanctions objectives be clearly articulated at the outset.
    The second thing I would just like to say is that, from the 
research, secondary sanctions, we found, have proven--and this 
was in cases of Africa--the--against Liberia, in support for 
the RUF, in Sierra Leone, and against Eritrea for its arms 
exports to Somalia--have been highly effective, yet it is not 
something that is very frequently discussed nor used.
    Characteristics of effective sanctions, again, as the 
Ambassador pointed out, relationship to other policy 
instruments. Sanctions do not exist in isolation and are always 
used with other instruments, most often diplomacy, at times 
peacekeeping forces on the ground--62 percent of the cases. 
Sanctions need, and must be part of, a broader coordinated 
strategy.
    With regard to objectives in types of sanctions, U.N. 
targeted sanctions are effective more than 20 percent of the 
time, and--but are nearly three times more effective in 
constraining and coercing than--constraining--excuse me--or 
signaling than they are in coercing. This is very important, 
because it gets to the point of what the objective of the 
sanctions are and having realistic expectations of these 
measures to be able to be effective.
    Arms embargoes are the most frequently imposed sanctions, 
especially in African conflicts, in 89 percent of the episodes, 
but are least effective when applied in isolation. Travel bans 
are the next most utilized, 69 percent of cases. Asset freezes, 
66. Travel bans combined, 73.
    One interesting fact is, in 40 percent of the cases of 
armed conflict, commodity sanctions--those are sanctions on 
diamonds, such as in Liberia, Sierra Leone, and gold, at Cote 
d'Ivoire, oil, charcoal in Somalia, or timber in Liberia--when 
appropriately--have been highly effective for purposes of 
constraint and signaling.
    I am going to talk one moment just about the unintended 
consequence of sanctions, because I think that this is 
important. We found, in the data and the research that we have 
done, that corruption, criminality, strengthening of 
authoritative rule, and decline of legitimacy of the Security 
Council have occurred. But, there are additional consequences, 
which, until recently, have not been focused on, and this is as 
a result of policies and sanctions intended to counter the 
financing of terrorism and anti-money-laundering. And this is 
the de-risking--the de-risking issue that some of you have 
written to the executive branch about, the inability of 
remitters or money service businesses and charities to access 
financial services. And these problems have been particularly 
acute in African countries, such as Somalia, Sudan, and Angola, 
where humanitarian assistance is great--is in greatest need.
    With regard to challenges to effective sanctions, very 
quickly, right now there is, you know, insufficient political 
will within the Security Council, especially regarding China 
and Russia.
    Two, weak implementation and capacity. And this is the most 
important issue, I would say, that we need to focus on.
    And that is, countries lack basic legal authority and 
executive bodies to translate U.N. sanctions into domestic law. 
And, in very many cases, the failure to implement sanctions 
boils down to a lack of capacity.
    Ineffective and inadequate monitoring and enforcement, 
mechanisms that we need to enhance in the context of the U.N.
    And misperceptions and lack of understanding about what 
sanctions are intended to do.
    With regard to recommendations, very quickly. One is to 
improve member states and regional capacity. This is using 
those people on the ground--the AU, ECOWAS, SADC, et cetera--to 
focus on sanctions. And this also gets to greater leadership 
and focus for conflict-related sanctions vis-a-vis 
nonproliferation and terrorism goals. It is just not there at 
this point, both in terms of the U.S. Government and even 
within the context of the U.N.
    The second is to enhance sanctions monitoring and 
enforcement. The--if there are violations, noncompliance, there 
has to be some kind of response or else sanctions will lack 
credibility.
    The third is to strengthen cooperation with regional groups 
and civil society.
    The fourth is to develop better analysis and understanding 
of sanctions and to focus on new tools, new ways that we can 
exercise the tool to be more effective.
    Finally, that U.N. sanctions have made an important 
contribution to achieving U.S. policy objectives in Africa, but 
to a limited degree and with some important unintended 
consequences. It is a mixed record of effectiveness, but, 
frankly, there are so few tools, between words and war, that 
they will continue to be used. And we do have to be aware, I 
think, as Secretary Lew has pointed out most recently, of the 
tendency to use them automatically or without thought as part 
of a broader strategy, which can lead to overuse.
    Mr. Chairman, thank you for the opportunity to testify on 
the effectiveness of African sanctions.

    [Ms. Eckert's prepared statement can be found in the 
Additional Material Submitted for the Record section of this 
transcript.]

    Senator Flake. Thank you.
    Dr. Moss.

  STATEMENT OF TODD MOSS, CHIEF OPERATING OFFICER AND SENIOR 
    FELLOW, CENTER FOR GLOBAL DEVELOPMENT, WASHINGTON, D.C.

    Dr. Moss. Thank you, Chairman Flake, Ranking Member Markey.
    I have three points today about the utility of targeted 
bilateral U.S. sanctions, and I will conclude by highlighting 
how each applies to the troubled case of Zimbabwe.
    My first point is that U.S. bilateral sanctions are a 
visible and potent signal from the world's most powerful 
nation. If you steal elections, you do not get to send your 
kids to school in Boston. If you rob public coffers, you do not 
get to invest in California real estate. If you mistreat your 
own people, you do not get to seek medical care in Houston 
hospitals. Sanctions against the most oppressive, violent, and 
kleptocratic regimes could even be used more frequently. For 
example, I believe it is past time for the U.S. to take a hard 
look at sanctions against political leaders in The Gambia.
    Second point is that well-crafted and aggressively executed 
targeted sanctions can have a significant impact on influencing 
the decisions and policies of regimes and bad actors. Both 
financial sanctions implemented by the Treasury Department and 
travel sanctions imposed by the State Department can have 
traceable effects when policymakers have very clear and 
concrete objectives in mind, and especially when the 
intelligence community is given the time and means to find 
financial levers and vulnerabilities.
    Third, regime change is the wrong metric for success. No 
one claims, nor should anyone expect, that targeted bilateral 
sanctions on their own will bring down a regime. Sanctions 
complement, rather than replace, our other diplomatic, 
economic, and military tools.
    So, how do each of these points apply toward U.S. policy in 
Zimbabwe? The current legislation, known as ZDERA, includes a 
call for travel and economic sanctions against individuals, 
specific individuals who are believed to be responsible for 
violence and the breakdown of the rule of law in that country.
    Point one. U.S. sanctions have been a very powerful and 
visible bipartisan signal of U.S. policy of standing firm on 
democracy. ZDERA was cosponsored by Senators from across the 
political spectrum--Bill Frist, Jesse Helms, Russ Feingold, Joe 
Biden, and Hillary Clinton. The executive branch sanctions 
advocated by ZDERA were not directed at the country as a whole, 
but aimed at specific individuals. Unfortunately, as of 2016, 
none of the key ZDERA conditions have been met, either in 
letter or in spirit. Those are restoring the rule of law, 
holding free and fair elections, and depoliticizing the 
security forces.
    Point two. The lack of Zimbabwe's progress to date is not 
an indicator that sanctions, per se, have failed. Zimbabwe's 
decline continues primarily because of an entrenched highly 
abusive regime combined with very unhelpful regional dynamics. 
The European Union's weak and deeply misguided move last year 
to lift most sanctions on Zimbabwe is not a path the United 
States should follow.
    Before we change course, we must ask whether the removal of 
U.S. sanctions will advance U.S. policy goals or will the 
removal play into the hands of the regime. In my view, lifting 
sanctions at this time will merely strengthen Robert Mugabe and 
the cabal around him by providing a major propaganda victory. 
The regime will claim that it has vanquished its imperialist 
oppressors and it now has formal American endorsement.
    Point three. Sanctions against Zimbabwe would be much more 
effective if they were embedded in a broader strategy that 
included other tools of U.S. power and influence. The United 
States has generally disengaged from Zimbabwe in recent years, 
leaving our policy little more than sanctions plus humanitarian 
assistance. Rather than throwing up our hands or acquiescing in 
the face of difficulties, we must engage with allies to support 
democratic forces in the country, rather than abandon them. The 
sanctions list, itself, could be used more creatively to 
encourage positive behavior and increase U.S. influence in a 
post-Mugabe transition. In fact, the U.S. Government should be 
preparing specific targets and options for further ratcheting 
up pressure, which could be deployed, as necessary. This 
absolutely must include the United States continuing to collect 
information on certain politicians who, one day, should face 
charges of embezzlement and war crimes.
    Finally, one additional related point. Zimbabwe is today 
taking steps to try to borrow again from the international 
financial institutions. As the recent letter from Chairman 
Corker to Treasury Secretary Lew makes clear, it is premature 
for the United States to support any new lending to the 
Government of Zimbabwe. Preconditions must include meaningful 
reforms rather than simple technical targets.
    Before asking for more funding from the international 
community, Zimbabwe must also account for the billions of 
dollars in missing diamond revenue. Most of all, the United 
States should insist that Zimbabwe's government acknowledge and 
take responsibility for gross human rights violations committed 
by state agents, such as the Matabeleland massacres and, just 
15 months ago, the abduction and probable murder of human 
rights activist Itai Dzamara. Until the Government of Zimbabwe 
has met the ZDERA conditions, it is not yet time for the U.S. 
to abandon its targeted sanctions. More broadly across Africa, 
sanctions will continue to be both a practical and symbolic 
tool for U.S. policymakers, provided they are carefully 
targeted, deployed among other policy tools, and not expected 
to serve as a substitute for other actions.
    Thank you.

    [Mr. Moss's prepared statement can be found in the 
Additional Material Submitted for the Record section of this 
transcript.]

    Senator Flake. Thank you.
    Mr. Brooks-Rubin.

  STATEMENT OF BRAD BROOKS-RUBIN, DIRECTOR OF POLICY, ENOUGH 
                   PROJECT, WASHINGTON, D.C.

    Mr. Brooks-Rubin. Chairman Flake, Ranking Member Markey, 
Senator Coons, I am grateful for the opportunity to testify on 
this critical yet often misunderstood element of U.S. foreign 
policy. And my statement, I think, will build on many of the 
points my colleagues on the panel have made.
    When once asked his opinion of Western civilization, 
Mahatma Ghandi reportedly responded, ``I think it would be a 
good idea.'' Men, women, and children across sub-Saharan Africa 
pay a price every day for the unchecked violence and resource 
theft committed by leaders who do not believe they will face 
real consequences for their actions. Sanctions have become the 
nonmilitary tool of choice of the U.S. Government to try to 
deliver just those consequences across the globe. But, based on 
my experience as a Treasury attorney advising the Office of 
Foreign Assets Control, a State Department officer focused on 
natural resources and conflict, a compliance advisor in the 
private sector, and now at Enough, I see that sanctions in sub-
Saharan Africa have generally failed to achieve desired 
impacts.
    As of today, at least with respect to addressing conflicts 
and violent kleptocracy across the continent, the problem with 
sanctions and financial pressure is not that they are 
ineffective, per se, but that they are not utilized as 
effectively as possible in supporting U.S. efforts to promote 
peace and human rights.
    We are experiencing the cost of this in real time as our 
influence wanes in countries like South Sudan and the DRC, 
where conflicts now impact the region and the globe as a result 
of migration, this despite spending billions of taxpayer 
dollars in recent years to support humanitarian and 
peacekeeping efforts. Our failure to use financial pressures 
properly to develop meaningful leverage that imposes real costs 
helps, in part, to explain this waning influence.
    So, when asked my view of U.S. sanctions policy in sub-
Saharan Africa in 2016, I would respectfully invoke Gandhi and 
say that it would be a good idea.
    Sanctions can and do have beneficial impact when they are 
carefully designed and strongly enforced. Treasury Secretary 
Lew recently outlined the key elements of an effective modern 
sanctions approach, including the need for clear policy goals, 
investigators delivering financial intelligence analysis, 
meaningful enforcement, and proactive sanctions relief. As 
detailed in my testimony, however, almost none of these 
elements is in place to support sub-Saharan African sanctions, 
not because it is impossible, but because we do not devote the 
necessary attention or resources, as we do not view these 
countries through the serious economic lens they deserve.
    At the Enough Project, we analyze five countries--Sudan, 
South Sudan, the DRC, the Central African Republic, and 
Somalia--each of which is subject to U.S. sanctions in some 
form, through a lens of what we call ``violent kleptocracy,'' 
in which those in power and their networks of facilitators and 
enablers hijack the state to engage in grand corruption and 
foment violence. As the Panama Papers and the work of our 
investigative initiative called the Sentry Show, these violent 
kleptocracies depend on the international financial system, 
particularly the U.S. dollar, as they engage in many of the 
same types of transactions that narcotraffickers, terrorist 
networks, WMD proliferators, and corrupt regimes in other parts 
of the world use, and against which we have deployed the full 
array of financial pressures. Because violent kleptocracies in 
Africa all revolve around money, especially the dollar, we have 
the power to disrupt them.
    I set out in my testimony a six-part framework to ensure we 
use sanctions effectively, which echo the sentiments of some of 
my colleagues on the panel. That framework is: one, identify 
clear policy goals; two, develop better financial intelligence; 
three, employ modern sanctions tools beyond targeted listings; 
four, build on the actions at key junctures; five, prioritize 
enforcement; and six, keep sanctions temporary and mitigate 
negative impacts.
    In most cases, thorough analysis of African sanctions show 
that they do not rate well against this framework. Yet. But, we 
can take steps now to improve this and develop a more effective 
and modernized approach. Some of the examples detailed in my 
testimony include designation criteria designed to deliver 
financial impact on high-level targets and enforcement actions 
at key moments. In South Sudan, for example, two sanctioned 
commanders have maintained U.S. dollar bank accounts in Kenya 
and traveled openly in the region for months after they were 
sanctioned. Other steps include enforcement action against this 
in recent months could have been quite effective. Employ 
sectoral and even secondary sanctions as needed when based on 
clear intelligence to act on key economic vulnerability. Push 
the Financial Crimes Enforcement Network, FinCEN, to look 
beyond drugs and terrorism when acting against money laundering 
on the continent, something it has never done in sub-Saharan 
Africa. Our research shows that both Congo and South Sudan 
represent real opportunities for FinCEN to act against the 
laundering of the proceeds of corruption and natural resource 
trafficking. Issue strong messages against de-risking and 
explain clearly how sanctions work and how they can evolve and 
be nimble over time.
    Finally, we believe Congress can play a strong role in 
helping to move this effort forward by passing the Global 
Magnitsky Human Rights Accountability Act and by passing Senate 
Resolution 479 introduced by Senators Markey, Durbin, and 
Murphy, which call for targeted sanctions on President Kabila's 
inner circle if the government does not organize free and fair 
elections and adhere to its constitution. Appropriators should 
allocate to Treasury and other agencies a greater share of 
intelligence and investigative resources that can be dedicated 
to sub-Saharan Africa, mirroring language released just today 
in the House Financial Services and General Government Draft 
Committee Report.
    Chairman Flake, Ranking Member Markey, we are fully aware 
of the panoply of U.S. security concerns and interests, and we 
are sanguine about where sub-Saharan Africa tends to rank, but 
we are aware that sanctions represent a critical component in 
our foreign policy toolbox, and believe they have not been used 
to their full potential in sub-Saharan Africa. That approach 
needs to change, and soon, if we are to use these tools most 
effectively.
    Thank you very much for the opportunity.

    [Mr. Brooks-Rubin's prepared statement can be found in the 
Additional Material Submitted for the Record section at the end 
of this transcript.]

    Senator Flake. Thank you all for your testimony.
    I will start with 5 minutes of questioning--or 7 minutes--
and we will go from there.
    Ambassador Lyman, you mentioned, when we met before, that--
and in your testimony--that sometimes the threat of sanctions 
is more effective even than the sanctions, themselves. How is 
that? Can you talk about that a minute?
    Ambassador Lyman. For two reasons. Once you employ 
sanctions, first of all, if they are targeted sanctions on 
individuals, it is very hard to lift them anyway. If you are 
targeting someone for their human rights violations, and then 
the government does the right thing, are you really going to 
lift the sanctions on that individual? So, how you link 
targeted sanctions to political objectives is important to 
think through.
    Second, once you have put sanctions on, people start to 
figure out how to evade them. And the longer they stay on, the 
longer they do that. So, on the other hand, in looking at the 
resolution that Senator Markey has introduced, if you are 
saying that the U.S. is prepared look at sanctions across a 
rather broad stream of people who are significant politically 
as well as individually in their own actions, you are posing a 
significant threat to the way that regime operates. But, if we 
implement them without correlating support from the Africa 
Union, from the Europeans, et cetera, they will not necessarily 
have the same impact.
    Right now, I think the threat is very important. When to 
actually do that, seems to me, depends a lot on what other 
pressures are coming to bear and how the regime is reacting.
    Senator Flake. Thank you.
    Dr. Moss, with regard to Zimbabwe, what is the end game, 
the sanctions that we have right now? What is the desired end 
game and the likely end game?
    Dr. Moss. Well, I think it still remains the conditions 
contained in the ZDERA legislation, which is to get Zimbabwe 
back on a democratic path and one of robust and equitable 
economic growth and the rule of law. Now, those are pretty 
broad goals. But, now, because our sanctions have been imposed, 
that is part of the new political equilibrium. If we all of a 
sudden say, ``Well, it has been 16 years, and Mugabe is still 
in power, let us lift them,'' we are now actually injecting 
that change into the political system there. That will be 
interpreted as our--an abandonment of U.S. support for 
democratic forces there. It will be abandoning some of our 
leverage that we may have in a post-Mugabe transition, where we 
can hold out the carrots of good actors. When a 92-year-old 
leader is--has a fragile hold on power, he will start looking 
for what actors like the United States are going to do when he 
passes. And having the ability to use our sanctions to 
encourage positive behavior in that period is something we 
should not give up so quickly.
    Senator Flake. Along those lines, how important is it that 
the opposition and those likely to assume power after Robert 
Mugabe leaves--how important is it that they see a consistent 
application of sanctions or what might come on them if they do 
not straighten up and fly right----
    Dr. Moss. Yeah.
    Senator Flake.--after they take control?
    Dr. Moss. Well, I think we are at a moment where nobody 
really knows what a post-Mugabe Zimbabwe will look like. There 
are lots of possibilities there. Anyone who tells you they are 
sure what it will look like, I think is--I would not give that 
view too much credence.
    But, the point is that we want to try to maximize our 
leverage to try to encourage a positive outcome there. That 
could mean offering carrots to members of the current regime 
that want to have a better future. We have lifted sanctions 
occasionally on actors that had them before, when they have 
changed their behavior. And I think continuing to make those 
signals out there are--is very important for the United States, 
especially because there is such a high degree of uncertainty 
of where the international community stands on Zimbabwe.
    Senator Flake. Thanks.
    Ms. Eckert, you mentioned regional organizations, the 
importance there. Let us talk about the African Union for a 
minute. Where--what examples do we have of effective sanctions 
imposed by the African Union?
    Ms. Eckert. Well, there are differences, in terms of 
objectives. The objectives of the AU, SADC and ECOWAS are all 
to restore democratically-elected governments. So, it is not 
focused on human rights. This is according to the 
constitutional basis of these organizations. But, they have 
been important, because what they do is, they are focused on 
the leaders, the individuals, so they actually apply the 
sanctions and withhold them being able to attend regional 
meetings, et cetera. So, it is different, in terms of how it is 
applied, but we have a number of cases in which AU sanctions 
preceded U.N. sanctions. So, the AU or ECOWAS was trying to 
address the situation on the ground and went to the U.N. to 
actually buttress the kind of message that was being sent and 
the reason for those sanctions.
    So, I think, in particular, the AU has taken a much greater 
role in recent years of trying to reach out. Its Peace and 
Security Committee. They have come to the Security Council on 
occasion and asked for assistance in how you actually write 
resolutions and how you implement and enforce, et cetera. And 
there is not much there, frankly. And I think that this is a 
tremendously lost opportunity, because we can work with those 
countries, through the AU, to actually put in place more 
effective means for implementing, not just AU sanctions, but 
U.N. Security Council sanctions, above all. And the important 
thing to remember, Why do we care about U.N. sanctions? It is 
because, for most countries, it is the only legal basis for 
those countries. It is a Chapter VII mandatory implementation, 
so it is the only legal basis for so many countries to do 
something on implementing these sanction measures, something 
which is in our U.S. interest.
    Senator Flake. Thank you.
    Mr. Brooks-Rubin, what do we need to be concerned about 
with regard to implementation of sanctions against the DRC 
right now? We have a situation--elections have been called for, 
the Constitution requires them by the end of the year. In terms 
of the timing of the threat of sanctions and then the actual 
implementation, what concerns should we have, in terms of 
lining up support from the international community, the EU, and 
others? What should we be concerned about?
    Mr. Brooks-Rubin. I think we should be concerned, first and 
foremost, with delivering a clear message. The country of Congo 
has never seen a peaceful transfer of power. And we are seeing 
a move by the government to do everything in its power to avoid 
holding that election. I think we know that President Kabila, 
the enablers, the facilitators around him, have extremely deep 
and vested interests. As Todd referenced, their children are 
studying abroad, their networks are wide, and we need to 
deliver a clear message now that that network can and will be 
disrupted unless there is a clear move to a constitutional 
transition of power. The longer it goes, and the less that the 
regime feels like it will face real costs, the more likely we 
are to see violence and repression begin. We need to move now 
to make that message clear.
    And certainly, with our--there are many differences within 
the international community, but this is a moment for us to 
lead and make clear what needs to be done and that our role in 
this, because of the U.S. dollar and its role in the 
international financial system, we have a strong impact to 
make. And by leading and by demonstrating that this is what the 
regime needs to do, we can bring other partners onboard. And if 
we wait too long, things will descend very quickly.
    Senator Flake. Right. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Brooks-Rubin, you referenced the resolution, which I 
have introduced, calling for targeted sanctions on the DRC. And 
that resolution calls for the sanctions to be done in 
coordination with the African Union and with regional and 
international partners, and with the United Nations, 
specifically in the resolution. What impact do you think such 
sanctions would have on President Kabila's decisionmaking? And 
how do you think those types of sanctions would be received by 
the people in Congo? Congo already has indigenous democratic 
movements. So, it is not that we are trying to create those 
institutions. They are already there. So, what do you think the 
reaction would be?
    Mr. Brooks-Rubin. Senator, I believe the reaction would 
be--if they are implemented and enforced, and we can 
demonstrate real meaning and real disruption of power, I think 
the reaction on the ground would be tremendously positive. The 
NGOs, the communities that we engage with as Enough, and that 
our partners in other organizations engage with, demonstrate 
that the Congolese people want a different path than what they 
have experienced over the last more than 100 years.
    In the opening remarks you gave referencing President 
Obama's call on strong institutions, the Congolese people want 
those strong institutions, they want to see a peaceful and 
clear transition of power. They want to see that we can, and 
the international community can, deliver that strong message.
    We are already seeing arrests and detentions and violence 
against protesters. And I think we have all seen, sadly, too 
often what that results in. We need to be able to deliver that 
message and to get to those movements that you reference now to 
demonstrate that we can do something about this that has an 
impact, that is more than just a message or more than is just 
good intention. And I--by using some of the broader tools of 
financial pressure and targeted sanctions at high-level 
targets, we can do that.
    Senator Markey. Mr. Moss, what do you think the reaction 
would be in Congo if there were broad international sanctions 
that were imposed upon the Congo government? How do you think 
President Kabila's decisionmaking would be affected?
    Dr. Moss. Yeah. So, I have no idea, in the case of the 
Congo, what the effects of that would be. I find it plausible 
that it would have the effects that Brad mentioned.
    If I was a U.S. Senator trying to contemplate this, I would 
want to know two things. One, what are the specific pressure 
points that these sanctions are intended to hit? If there are 
high-level targets, do we know where their accounts are? Do we 
know where their businesses are? If the intelligence community 
tells us that they are not going to be affected by targeted 
sanctions, then we would not expect to see some of those 
effects.
    And second, I would want to see, from the administration, 
how targeted sanctions fit within a broader strategy, and how 
those pressure points are going to get us some of the steps 
along the way of where U.S. policy is trying to go. The 
sanctions are not embedded in a broader strategy and--that 
seems credible--then we are doing something that just makes us 
feel good, which can have important signaling effects and--but 
are unlikely to really move the needle if we do not see those--
that context.
    Senator Markey. Yeah.
    Ms. Eckert, what do you think would happen if we, on an 
international basis, imposed sanctions led by the United 
States?
    Ms. Eckert. I am not an Africa expert, so I will defer to 
my colleagues on reading this, but I think that if the United 
States was to take the leadership and continue to have the very 
intensive discussions with the Europeans, getting them onboard, 
I think that we have a very potent tool that we can use. I do 
not know--I mean, given what we have seen in the past, in the 
previous elections, in 2011, and the violence, I understand 
well the State Department's concern about the unintended 
consequence of these measures. And that is why I think, in 
working on sanctions legislation, when I was here on the 
House--on the Hill, on the House side, one of the most 
effective things is not to mandate the sanctions, but to 
underscore the importance and try to enhance the tool, and put 
that in the hands of the policymakers.
    I think that a concerted effort and leadership by the U.S. 
and combined with the fact that we could actually get to some 
of the assets, in particular, and the travel, I think would 
send a very powerful message. I do not know exactly how Kabila 
would respond. And I think that is the major fear of everyone 
in the policy circles, is, we could be creating a worse 
problem.
    Senator Markey. Yeah. And again, my fear is not just how he 
responds, but by every other nation subsequently as their 
constitutions require them to leave. And so, we have to start 
this someplace.
    Ms. Eckert. That is right. And----
    Senator Markey. We have to begin this effort. We just 
cannot allow it to continue, domino after domino, to fall. Even 
as these countries become more wealthy, they regress, in terms 
of their democratic institutions. So, that wealth is something, 
that influence which they have is something that we can target.
    Mr. Lyman, you said it clearly has to be more than 
bilateral, which I agree with you on. And I would love to get 
your perspective on how to define the effectiveness of a 
sanctions regime. Would you limit it to the ability to 
influence a government or a group towards a specific result, or 
is there also a value in communicating to a government or its 
people that we, the United States, will not be seen as helping 
a regime to violate the democratic or human rights of its 
people or to break the peace of their society?
    Ambassador Lyman. Thank you, Senator.
    And this is my personal views. But, I think, first of all, 
you have to ask, Why would President Kabila want to stay on? Is 
it just for financial gain? Is it because he is worried about 
retribution after he leaves? Is it something else? And if you 
do not know that, you are not quite sure what kind of pressures 
are going to be significant.
    Second, we have a time factor here. His term is up in 
December. It is not clear to me, given the complexity of the 
DRC, that we could really impose and have far-reaching effect 
on the government between now and December, by the time you 
pass them, try to implement them, and the complexities of 
commodity exchanges with neighboring countries, especially if 
they are not cooperative.
    So, the question is, What are we trying to do? And it seems 
to me that the first thing we are trying to signal--we are 
trying to signal, it seems to me, two things. One, continuation 
in office is a destabilizing act and will lead to very 
dangerous instability in the DRC. Second, we are signaling that 
maintaining yourself in power by repressive techniques is 
unacceptable. So, those are the two messages.
    And then the question is, Can we rally enough support 
around that, with the threat of sanctions or the readiness to 
impose them, that the neighboring countries who would have to 
participate in enforcing them and others will put that kind of 
pressure and deal with whatever it is that is motivating 
President Kabila to stay.
    If this fails, if, come December, and he stays in power, 
and things to start to get worse, then the objectives are a 
little bit different. Then they become putting pressure on the 
regime so that it cannot function very well, and then hopefully 
it will step down.
    So, I think we have to think about the timing, when those 
things take effect, and how they will impact on the strategy 
and politics of the neighboring countries in the Africa Union.
    As I said earlier, I am troubled that the Africa Union is 
not forceful and organized in this regard. There is another 
point that Sue Eckert raised, which is very important if you 
want to get to U.N. sanctions. The rule of thumb that we have 
found is that, when the Africans are unified on wanting U.N. 
sanctions, we can usually get them through. China and Russia 
will not say no if the Africans say, ``This is what we want.'' 
But, when the Africans are divided, the Chinese and the 
Russians say no. So, if you want to move this to U.N. 
sanctions, for the reasons that Sue mentioned, then you have 
really got to get the Africans united behind you.
    Senator Markey. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Dr. Moss, let us talk for a minute about the relationship 
between Congress and the administration, and where the impetus 
for sanctions comes from. When I was in Zimbabwe a couple of 
months ago, we met with the Foreign Minister, and he had the 
letter in his hand that Chairman Corker had written with regard 
to sanctions. He was obviously paying attention, as was the 
government there, the letter saying, ``Do not, you know, 
provide sanctions relief.'' What--is that the case across the 
board? How many governments that we are talking about pay 
attention to that? Where is it useful for Congress to be 
pushing harder than the administration or give the 
administration the flexibility to move? Can you talk about the 
relationship a little between Congress and the administration?
    Dr. Moss. Sure. I think it is very useful for Congress to 
push the administration, which, maybe for other reasons, is 
less motivated to take action. And that could be, you know--
there are lots of examples of that. However, I do think that 
the ideal relationship is where Congress is giving a sense of 
the legislature to the administration, giving them authorities 
to take certain actions, but not overly prescribing them, 
because it tends to be very blunt, it is hard to be creative 
and selective, and it can actually wind up undermining U.S. 
influence by constraining policymaker action.
    Now, if you do not see policymakers being creative and 
aggressive in pursuing what you see as U.S. interests, then you 
might need to come over the top on that. I can understand that 
frustration.
    In the specific case that we are talking about in Zimbabwe, 
the ZDERA legislation calls for the administration to consider 
targeting top agitators for travel and financial sanctions. It 
also--it is a separate piece that calls for--it is unrelated to 
bilateral sanctions that it is calling for the U.S. to vote 
against debt relief or new lending at the international 
financial institutions. So, it is actually not the case--
although the Zimbabwean government does not quite understand 
this--that they believe they cannot get loans from the World 
Bank because of U.S. sanctions. That is not true. The reason 
they cannot get loans from the World Bank is because they have 
not been paying their World Bank loans, and they have 
accumulated over a billion dollars in arrears, and the World 
Bank will not lend to you if you owe back payments of--large 
back payments.
    So, the question now for the U.S. is, As Zimbabwe is trying 
to figure out some accounting gimmicks to clear its arrears, 
would we support new lending if they are able to clear that 
hurdle? And that is why I believe Chairman Corker's letter was 
very clear and very constructive.
    Senator Flake. Thank you.
    Ambassador Lyman, kind of the same question. You have been 
Ambassador to two very important African countries, you know, 
with a history of sanctions. With regard to South Africa, the 
Comprehensive Anti-Apartheid Act, Congress overrode a 
presidential veto in that regard. Talk about the relationship 
between Congress--can--I know that sometimes the State 
Department will, obviously, want enabling or authorizing 
legislation or simply ``cover'' so they can point to Congress 
with these countries. When is that useful? How can Congress 
play a constructive role and not undermine what the 
administration would like to do, given what all of you have 
talked about, about sanctions being used as a tool, as part of 
a broader strategy?
    Ambassador Lyman. First of all, let me draw on my 
experience working on Sudan in--during the negotiations of the 
Comprehensive Peace Agreement. The tremendous value of both the 
public's and the Congress's focus on this issue gave us much 
more authority and leverage to play a role in those 
negotiations than it would have been otherwise, because it was 
clear that this was a U.S. high priority, and it was of concern 
not just to someone in the administration or one element here, 
but a broad concern of the United States.
    What is troubling--and I have thought of this for a long 
time--how little attention the United States, relatively, has 
been given to the DRC, which--civil wars there have taken over 
5 million deaths, and it is such an important country. So, the 
fact that the Congress--you and Senator Markey and others--are 
raising the importance of this and making it a priority for the 
United States, I think is very helpful. And if I were in the 
administration, I would think it is very helpful.
    Now, I do think, as Todd spoke, you want to be encouraging 
the administration, you want to--supporting what they are 
trying to do, if they are trying to do this, and you want to 
have a discussion with them as to how what you are doing here 
can reinforce what they are doing there, and then see how the 
two can reinforce each other. And I think, in those cases, it 
is very important.
    Clearly, the congressional enactment of sanctions on South 
Africa came at a very critical time at the end of the Cold War, 
when we were looking at South Africa much more in terms of the 
anti-apartheid movement, and it sent a very strong signal and 
was part of a larger process. Here, I think you are signaling 
to the administration that Congress cares about this issue 
that, as Senator Markey said, some of the actions going on 
there are unacceptable. I think that bolsters the role of the 
administration with its allies and in the field.
    Senator Flake. Thank you.
    Ms. Eckert, do you have any thoughts on this?
    Ms. Eckert. Thank you, Mr. Chairman.
    I confess to some tugging, because, having been on both 
sides, but being both on the staff side----
    Senator Flake. Right.
    Ms. Eckert [continuing]. And working on sanctions 
legislation on the House Foreign Affairs Committee, and then 
being in the position of implementing, in the Clinton 
administration----
    Senator Flake. That is why I am asking you. [Laughter.]
    Ms. Eckert [continuing]. Where you stand depends on where 
you sit----
    Senator Flake. Right.
    Ms. Eckert [continuing]. Or vice versa. But, I think that 
what is most important is that for them not to be opposed. In 
other words, to have outright opposition, to have the sanctions 
with so little flexibility that the executive branch feels that 
its hands are too bound, that it cannot conduct adequate 
foreign policy, puts everyone in the bad position of sending a 
mixed signal. And I think that is what we have seen in the 
past, on a number of cases in which it just undermines the 
sanctions. We send a mixed message. We are not effective at 
achieving the goals. And, frankly, people have used that, in 
terms of rally-round-the-flag effect, and it undermines the 
credibility and effectiveness of the sanctions.
    I think that the reinforcing nature can be quite important. 
And I think, frankly, what you are doing here today--there are 
so few hearings and so little focus on African sanctions and 
how to make those more effective, so I think that this is a 
tremendous way of trying to get the executive branch to focus, 
to have a broader understanding in the public of why these are 
important, and how and why they can be effective.
    Senator Flake. Thank you.
    Mr. Brooks-Rubin, do you have any thoughts?
    Mr. Brooks-Rubin. I do, thank you.
    Yeah, having been in the executive branch, there is 
something of a sort of natural reaction, but I am certainly 
learning a lot from being on the other side. And I think there 
are a few very key things that Congress can do.
    As I mentioned, passing Global Magnitsky Human Rights 
Accountability Act is key. I mentioned, in my statement, 
appropriations to Treasury and other agencies. A lot of what we 
have talked about is developing the right intelligence and 
having the right resources devoted to this. At the moment, they 
are not, partially because the agencies now do not see that 
it--they do not feel that kind of public and congressional 
importance that Ambassador Lyman referenced. That needs to 
come--we are certainly trying to do as much as we can, but 
Congress can deliver an important message.
    There are a lot of very good working-level staff who have a 
lot of very good ideas about what can be done on these 
programs. They need senior leadership to devote the resources 
to them. And so, maybe that is--some additional appropriations. 
But, then you can also hold them to account. When sanctions are 
renewed and a part of the legislation that underlies sanctions 
requires Treasury and other agencies to report to Congress on 
how they are implementing and what they are doing, hold those 
to account. There is often, you know, a sense that those--there 
is a lot of very good information in there, and a lot of very 
good material that Congress could use to really push Treasury.
    We saw, in the Iran context, that a lot of the very 
creative tools that are now in place and that really played a 
role in moving that process forward came from Congress and 
really pushed the administration to think more creatively. What 
they have done in the Russia and Ukraine context, again, a lot 
of very good ideas and being pressed to be creative and get out 
of the rut. And I think the rut that we are in with respect to 
sub-Saharan African sanctions can be moved--that needle can be 
moved quite a bit by clear direction from Congress.
    Senator Flake. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Brooks-Rubin, you suggest, in your testimony, that one 
of the key shortcomings in our current approach to sanctions in 
sub-Saharan Africa is the unwillingness to use them at critical 
moments to build leverage. The elections in Congo are 
approaching very rapidly. This is a key juncture in the whole 
history of popular democracy in Africa. Congo is a big, big 
country. It sends signals to an entire region. So, could you 
give us your thoughts on the appropriate timing for sanctions 
in DRC?
    Mr. Brooks-Rubin. Thank you, Senator.
    Yes, One of the contrasts between sanctions in sub-Saharan 
Africa and sanctions in other contexts is often the willingness 
to back off at key moments and sort of wait for the next 
moment, the next process, which then, too often, does not come. 
We saw this just unfold in South Sudan, where there were months 
and months of delay of implementation of the peace agreement, 
and more violence and more looting by corrupt officials, always 
waiting.
    Senator Markey. You are saying in sub-Saharan Africa, in 
Sudan, we did not act at the appropriate time. When the crisis 
was about to arrive, was building, we stood on the sidelines. 
And that is a mistake. If you extrapolate that over now into 
Congo with their elections on the way, knowing the 
ramifications in Kenya and other countries, if an example is 
set, which will be hard, then to say is something that the next 
country should not do.
    Mr. Brooks-Rubin. Yeah. Agreed. I think now is the time to 
deliver that message. At--we cannot act soon enough. I helped 
to coordinate the executive order on Congo sanctions in 2006, 
and we did a lot of scurrying around for the right message 
then, and the right things to do, and we waited. And then I was 
at State in 2011, and again we waited, and we had kind of a 
muddled response to that election. Here we are again.
    It is time to act on this, because it is not just this 
election. We have seen this movie before, sadly. And the time 
is now to act.
    And, you know, at every key moment in the Iran negotiation 
process, we issued an enforcement or designation process to 
deliver the message of accountability, ``In order for this 
process to be serious, we are going to take a step and show you 
that we will hold you to account if you do not move forward.'' 
And I think we need to do the same with Congo.
    Senator Markey. Okay, thank you.
    Back to you, Ambassador Lyman, if we could.
    And we thank each of you for being here. You each have 
distinguished careers. And I know Sue Eckert from the House 
Foreign Affairs Committee, where she was an excellent, 
excellent staffer.
    The role of Congress, Mr. Lyman. The executive branch could 
take action, if they wanted to, but what role do you think 
Congress can play in helping to reinforce that point with any 
country that we are trying to send a strong signal that the 
United States wants a change in course of action?
    Ambassador Lyman. Well, Senator, I would say, as I 
indicated earlier, I think it signals that these are issues 
that are of relevance to the American public, which you 
represent. And therefore, it says something more than just the 
administration. The administration obviously represents people. 
But, it sends a very strong signal. I think it strengthens the 
hand of American diplomacy. Yes, there are questions of, you 
know, how much leeway you give and leverage you give each--you 
know, the administration operating. But, I think the role of 
Congress, as others here have said, in calling attention to the 
issue, saying it is important to the Congress, ``The Congress 
is prepared to consider some very tough legislation''--I think 
this is very important.
    I do think that we want to be--and I would hope Congress is 
very clear on what it is that we are looking for here and what 
it is that Congress wants to see. And--because one of the 
problems of sanctions is, When do you lift them, and under what 
circumstances do you lift them? It is often harder to lift them 
than to put them on. So, the clearer it is as to what we are 
aiming for and what any sanctions would be aimed at would be 
very helpful.
    But, on the whole, I think what you are doing is 
strengthening not only public attention to this, but, in my 
view, strengthening the hands--Tom Perriello and others in the 
administration who, I think, are working along the same lines 
for the same objectives.
    Senator Markey. And I agree with you. And, you know, from 
this committee's perspective, or back when I was in the House, 
I was always a very strong supporter of sanctions on Iran, just 
to send the signal that this was just not some diplomat coming 
from the State Department, but the Congress itself was making 
sure to emphasize their need to change their behavior. Many 
administrations objected to passing those sanctions. We know, 
ultimately, that is what led to the final agreement that 
diplomats could reach.
    So, could you each kind of try to deal with this question? 
Because the resolution that I have introduced has no actual 
specific prescription for what the sanctions regime should look 
like. What, in your opinions, would be the best way to craft 
sanctions, knowing that it should be international in nature? 
What should it look like, in your opinions, if you want to 
start signaling to the Congo Government as soon as possible 
that we are serious?
    Mr. Lyman? Or Ms. Eckert? Let us start with you, Ms. 
Eckert.
    Ms. Eckert. Thank you, Senator Markey.
    There are things to go beyond legislation. And I think that 
hearings are very important, and having the legislation out 
there, and the threat of sanctions, is extremely important. 
Some of the most uncomfortable positions I was in, in the 
executive branch, was when I was called up for briefings that 
were not public. And it got into very detailed, ``What are the 
plans? How are we going to do this?'' And it was an engagement, 
I think, that was constructive for the purpose of how we were 
going to move forward. So, nonpublic oversight, I think, is 
extremely important.
    Another is the use of sanctions, in terms of resources. I 
am very fond and supportive of my colleagues at the Treasury 
Department, but the State Department has labored for years with 
increasing sanctions and no additional resources. And they are 
drowning. Because we have so many sanctions regimes, the 
activity level has increased significantly--they do not have 
the resources to do some of this. So, I think you send a strong 
signal with regard to your seriousness of sanctions by 
increasing staff, by increasing attention, even high-level 
engagement. We have a sanctions coordinator at State, which is 
relatively new in this administration, but it is focusing 
almost exclusively on Russia or, you know, on Iran previously. 
It is very difficult, because these sanctions get left behind. 
All the African sanctions do not have a strong advocate. We do 
not even have someone in the National Security Council whose 
job is to deal with sanctions.
    Senator Markey. There is no one on the National Security 
Council whose job it is to deal with sanctions?
    Ms. Eckert. Not specifically sanctions. They deal with it 
through the bureaus, the regional bureaus. But, again, if you 
had some higher-level focus, both within agencies and also 
within the NSC mechanism, it brings a seriousness to better 
coordination.
    The final thing I would just say is that talking about 
these issues and educating the American public, I think, is 
incredibly important, because most do not understand how 
important it is, what is happening there.
    So, clarity of purpose, as the Ambassador said, and not 
moving the goalposts. Be clear about what it is we are trying 
to achieve. All of these things help.
    As to timing, we have to get the AU and the countries and 
the neighbors onboard. And I think that may take some time, but 
that is critically important.
    Senator Markey. Thank you, Ms. Eckert.
    Mr. Brooks-Rubin.
    Mr. Brooks-Rubin. Thank you, Senator.
    To be specific on what some of those sanctions measures 
could be, again, I think we are talking about using whatever 
financial intelligence we have to go at the high level, both 
targets within the government and their enablers and their 
facilitators. And, as I said, too often there is not that 
intelligence inside the government. The research that we are 
doing as Sentry and that other NGOs are doing, should be used 
to get at those targets. And again, in the narcotics sanctions, 
you rarely see a narcotics sanctions designation with one 
entity. They designate a network. They find the key nodes of 
networks. We need to take the same approach with respect to 
Congo, identifying the key nodes and the networks that 
President Kabila and those in his regime are using, that then 
enable subsequent action.
    I think the financial crimes enforcement network at FinCEN 
is--it is high time that they were asked to take specific 
action. It can start with a--they have a lot of authority to 
request information that can prompt due diligence and 
information-gathering that law enforcement can use. Let us ask 
them to issue an advisory or a request--a private request to 
other governments and financial institutions--they have access 
to thousands of institutions--to get information on accounts 
related to the regime that we can then act upon and demonstrate 
that we can seize assets, freeze assets. That is what will send 
a message locally. And I think there is----
    Senator Markey. Okay. And I--I am going to run out of time 
here.
    Mr. Brooks-Rubin. Oh, sure.
    Senator Markey. I would just apologize to you.
    Mr. Moss, do you have a quick set of suggestions?
    Dr. Moss. Yeah, I would just make the point that if 
Congress is trying to send a signal to the Congolese and trying 
to motivate the executive branch, the legislation should be as 
broad and clear as possible. I think you only need to get into 
specificity if that is necessary for policymakers, if they need 
those tools to do what they are trying to do already. And that 
is Ambassador Lyman's point--if it is not supportive of what 
the administration is trying to do, that needs to get worked 
out. You are not going to be able to over-legislate something 
the State Department does not want to do.
    Senator Markey. Although I would say that we did over-
legislate on sanctions on Iran. And ultimately, coordination 
caught up. So, I would say that that was the sequence there. 
But, I would hope, here, that it would all be done together, in 
conjunction. And I think there is a common goal, here, to make 
sure that Kabila and the Congo get that message.
    And, Mr. Lyman, can I just ask you to quickly respond? The 
Chairman has been very indulgent with me.
    Ambassador Lyman. On this question, I do think that 
sometimes it is a good-cop/bad-cop thing, like you mentioned on 
the Iran thing, that works. But, here, if the administration is 
really working toward the same objective and willing to put 
pressure on, I think probably you want to work in close 
support.
    But, I think, again, the timing is important. We only have 
a few months. So, the more coordinated effort that can be put 
together in the next few months, it seems to me, is critical.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman, very much.
    Senator Flake. Thank you, to all of you. This has been 
incredibly informative.
    This subject has been one that I have followed for a long 
time, and had some experience with. I spent a year in Africa, 
in Namibia, 1989-90. It was a time that--there was a transition 
going on in South Africa. Sanctions were lifted, the 
Comprehensive Anti-Apartheid Act was being lifted in South 
Africa. And, after Namibia's independence, those sanctions were 
also--because of Namibia's governance by South Africa, Namibia 
was included. But, the Comprehensive Anti-Apartheid Act did not 
mention Namibia specifically by name, as well it should have 
been. Several state and local governments around the country 
actually mentioned Namibia by name. Those sanctions remained on 
the books for years afterwards. And it became troublesome, 
because sometimes lower-level bureaucrats in a city office or 
state office, when it was the sale of some good from Namibia, 
they might say, ``No, this contract cannot be had, because 
sanctions are still applied.''
    And so, these are important, and we have often used 
sanctions in the past, particularly in Africa, with smaller 
countries, like Namibia, kind of in a driveby fashion, and have 
forgotten about them afterwards. Gratefully, not the Congress, 
in that case.
    But, this is very helpful as we move forward, particularly 
given the timely nature of this discussion with regard to the 
DRC. So, we appreciate the testimony you have given here today.
    And you have----
    Ms. Eckert. Mr. Chairman, I just wanted to correct the 
record, because I have just heard that, in fact, there may be a 
person at the NSC who is very much a leader on sanctions, who 
has come down from U.S./U.N. And if that is the case, I think 
that that is very good news. But, before that point, there was 
no one who was addressing sanctions specifically.
    Senator Flake. Let the record note.
    And thank you all.
    The hearing record, for the benefit of members and staff, 
will remain open til Friday. If the questions come to you, if 
you could respond in a timely fashion, it would be appreciated.
    And, with the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

       Prepared Statement of Ambassador (RTD) Princeton N. Lyman

    Chairman Flake, Ranking Member Markey, and members of the 
subcommittee, thank you for holding this hearing. It is an honor to 
appear before you today to present my views on U.S. sanctions policy in 
Sub-Saharan Africa. The views I express today are my own and not those 
of the U.S. Institute of Peace (USIP).
    Africa has been far and away the target of more sanctions from the 
UN, the European Union (EU), and the U.S. than any other continent. 
Most of these sanctions and related restrictions are aimed at resolving 
conflicts, and in recent years these have been overwhelmingly civil 
wars. Only two sanctions regimes in Africa have been aimed at inter-
state war, between Ethiopia and Eritrea and between Eritrea and 
Somalia. While aimed at threats to international peace and security, 
sanctions have increasingly targeted individuals for gross human rights 
violations and in a few cases for leading unconstitutional usurpations 
of power, recognizing that these factors impinge directly on the 
intensity and duration of conflicts. These targeted restrictions have 
also largely replaced the use of broad based economic sanctions that 
have had a negative impact on the populations of affected countries. 
Both kinds of sanctions have nevertheless been used in Africa and are 
worthy of evaluation as to their effectiveness.
    I was asked to address four questions in my testimony.
    Before doing so, let me state my general view of sanctions:


 1. They are a tool, not a policy. Without a larger strategic framework 
        and set of supporting activities, they are not likely to 
        achieve their objectives.

 2. Sanctions work best when they are supported by the international 
        community. Individual country sanctions, by the U.S. for 
        example, can be effective where the U.S. has particular 
        advantages, but by and large targeted regimes or individuals 
        will find ways around them if they are not more widely 
        enforced.

 3. Sanctions have worked best when aimed at a specific outcome, such 
        as a peace agreement, or ending one country's support for war 
        in a neighboring country as with Rwanda's support for rebels in 
        the Democratic Republic of Congo (DRC). But sanctions, 
        especially by themselves, have least effect if the objective is 
        to pressure dictatorial regimes to give up power, or in their 
        eyes, to commit political suicide. Only in combination with 
        engagement, and organized and effective domestic democratic 
        pressure can sanctions help lead to transitions to democracy.


    Let me now turn to the questions put to me for this hearing.
    First, what is the recent track record of sanctions in Africa? Have 
they proven a useful tool in achieving our policy objectives? Have they 
had unintended consequences?
    There has been a wide array of sanctions applied in Africa in 
recent years, to include arms embargoes, targeted sanctions on 
individuals, restricting trade of commodities that support combatants, 
and travel restrictions. There are several instances where, together 
with other steps and activities, these have been effective. In Angola, 
Sierra Leone, Liberia, and Cote d'Ivoire, restrictions on the trade in 
diamonds and other commodities weakened rebel or anti-democratic 
forces, and facilitated either their defeat or their agreement to 
peace. But without supporting actions, sanctions alone would not have 
been sufficient. In Sierra Leone, Liberia, and Cote d'Ivoire, 
international troops were necessary to finally defeat the targeted 
elements. A similar combination of targeted sanctions and international 
peacekeepers has reduced and contained the conflict in the Central 
African Republic (CAR), but it is too soon to know if peace will be 
secured there.
    At the same time, sanctions have not produced the depth of 
political transition needed in Sudan, nor the end of autocracy in 
Zimbabwe. While most sanctions on Sudan are directed specifically to 
the conflict in Darfur and more recently that in Southern Kordofan and 
Blue Nile, it is generally recognized that without a political 
transformation in Sudan, these conflicts are unlikely to be resolved. 
Yet sanctions, however they have impacted the economy and isolated the 
regime, have not led the regime to undertake fundamental reform. Some, 
like the organization ENOUGH, have proposed more sanctions, especially 
better targeted and enforced financial sanctions to move the regime. 
But there is little international support that would complement such 
U.S. action. And U.S. sanctions alone will not convince a regime to 
undertake what it still sees as losing power. A much more sophisticated 
policy, that includes both the existing sanctions and the clear 
prospect of how sanctions would be lifted, engagement with the regime 
and opposition elements, and support for civil society, will be 
necessary to affect such transformation.
    Second, what is the relationship between international and U.S. 
sanctions in Africa? Is one more effective than the other, or must they 
be combined to achieve success?
    As I indicated earlier, sanctions which have widespread 
international support prevent targeted states or individuals from 
evading sanctions or finding alternative sources of support to lessen 
their effect. Politically, moreover, a multilateral regime ties any 
individual sanctions to a broader strategy with valuable partners aimed 
at addressing the conflict or other matter at which sanctions are 
aimed. Finally, different states and institutions have particular 
sources of leverage and influence that can be brought to bear on the 
targets of the sanctions.
    U.S. comparative advantage in applying sanctions derives from our 
major role in banking and other financial institutions. Asset freezes, 
sanctions against doing business with targeted individuals or 
companies, and restricting investment in sanctioned regimes all are 
instruments which the U.S. wields with particular effect. Moreover, the 
U.S. has recently made more use of secondary sanctions, i.e., 
sanctioning or threatening to sanction institutions in other countries 
for doing business with those the U.S. has sanctioned. The U.S. also 
plays a major role in shaping UN Security Council (UNSC) sanctions. The 
U.S. has held the ``pen" in such cases more than any other UNSC member.
    It is significant, however, that most UN sanctions in Africa have 
proceeded from recommendations, and prior action, by the African Union 
(AU) or a sub-regional body like the Economic Community Of West African 
States (ECOWAS). Of 43 African targeted sanctions packages, regional 
African organizations are involved in 41, or 95 per cent. In the 
initiation of UN Security Council sanctions packages, seven of the 
first fourteen African were preceded by regional sanctions.
    African engagement reduces the likelihood of the sanctions being 
evaded by the targeted individuals. It also ties sanctions into other 
efforts in the region to overcome the conflict. Moreover, when Russia 
and China recently became more aggressive in opposing sanctions, a 
unified African recommendation for them is virtually essential to 
obtain UNSC approval. When African organizations or regional powers are 
divided, as they are currently over South Sudan, it is not possible to 
get Russian and Chinese support for sanctions.
    The other side of this relationship is when sanctions lose their 
appeal, especially when they go on for long periods of time without 
effect or when African countries do not agree with the objective. 
African countries are less likely to enforce the sanctions regime. We 
see this in growing African unhappiness with the indictments of the 
International Criminal Court (ICC) and thus more African countries 
willing to invite Sudan President Omar el Bashir to visit. Sudan's 
foreign policy switch from close relations with Iran to providing 
troops to help Saudi Arabia in Yemen has led to more Arab financial 
support for Sudan despite heavy U.S. sanctions designed to inhibit such 
financing. South Africa which has the most outside influence on the 
situation in Zimbabwe, has never gone along with Western sanctions on 
the country, which are focused on internal political practices and 
human rights. South Africa is more concerned about the danger of 
economic or political collapse in Zimbabwe, which would heavily impact 
South Africa. More broadly, President Mugabe recently served as the 
elected Chairman of the African Union. U.S. and EU sanctions are thus 
of questionable effect.
    EU sanctions are nevertheless quite significant in Africa overall. 
While working hand in hand with the UN, but also often preceding UN 
action, EU sanctions have been focused on promoting human rights and 
support for democracy, whereas UN sanctions are directed to issues of 
peace and security. By 2013, the EU had applied 22 sanctions regimes 
against 19 African states, utilizing the Common Foreign and Security 
Policy adopted in 1992, and more important in Africa, the benefits 
under the Cotonou Agreement which governs trade and economic 
assistance. EU sanctions often work in concert with African Union 
sanctions in cases of unconstitutional seizures of power. The 
suspension of EU aid has been particularly effective in this regard. 
The EU has an advantage over the U.S. in the use of aid as a lever. 
U.S. aid to Africa has become increasingly dominated by HIV/AIDS and 
emergency humanitarian aid, neither of which lends itself to being cut 
off for political or even security objectives.
    Third, are certain types of sanctions (i.e., arms embargoes vs. 
financial asset freezes) more effective than others in Africa? In what 
political contexts are they most effective?
    Sadly, arms embargoes do not have a good track record. The 
literature suggests that without strong enforcement, especially by 
neighboring countries and countries with active arms exporters, they 
fail to reduce the level or intensity of conflict. And such enforcement 
is rare. That is one reason the U.S. and others have been hesitant to 
enact an arms embargo on South Sudan. Not only are the neighboring 
countries in the Intergovernmental Authority on Development (IGAD), 
which is also the institution directing the peace process in South 
Sudan, divided over this issue, individuals in some of those countries 
are actively involved in selling arms to one or the other of the 
contending parties.
    As Guy Lamb, author of an Institute for Security Studies paper on 
enforcement of arms embargoes in Africa, pointed out some years ago:


        In the majority of case studies . . . it was states bordering 
        countries targeted by the sanctions regimes, along with some 
        arms-producing states in Europe and Asia that were largely 
        responsible for embargo contraventions. In many of the cases, 
        when the panels of experts sought to investigate allegations of 
        arms embargo infringements, their efforts were frustrated by 
        the governments concerned. Numerous reports by panels of 
        experts bemoaned the lack of co-operation and even deliberate 
        obstruction to conceal information, by state authorities and 
        commercial enterprises that had been implicated in embargo-
        busting activities.\1\
---------------------------------------------------------------------------
    \1\ Guy Lamb, ``Beyond `Shadow-Boxing' and `Lip Service,' '' 2007, 
12,
    http://www.issafrica.org/uploads/Paper135.pdf.


    Moreover, some such embargoes are practically unenforceable. The 
embargo on arms reaching rebel groups in Darfur, not an embargo on arms 
entering Sudan, is one glaring example.
    Since the mid-1990s, targeted economic sanctions have become the 
preferred form of sanctions. That is because broad sanctions on a 
country that affect imports of vital products, restrictions on 
investment and trade, and other broad economic sanctions, have had a 
disproportionate impact on the population, less on the regime or 
rebels. Nevertheless, looking back on the sanctions placed on cocoa 
exports from Cote d'Ivoire, diamond exports from Liberia and Sierra 
Leone, and general economic sanctions on Sudan in the final stages of 
the Comprehensive Peace Agreement, one can argue that they had 
significant positive effect on the outcome in those cases. However, 
their effectiveness wears off as regimes learn to accommodate to them, 
evade them, or simply allow their people to suffer or migrate. Sudan is 
a case in point. Zimbabwe is another.
    Targeted sanctions, particularly financial ones and travel bans, 
have become steadily more sophisticated and effective, especially when 
enforced by the U.S. and its specialists in the Office of Foreign 
Assets Control (OFAC) of the U.S. Department of the Treasury and other 
parts of the U.S. government. They are aimed more at individuals than 
regimes or countries at large. Thus their impact is often to isolate 
individuals guilty of gross human rights violations, and in some cases 
achieve accountability as with those individuals sent to the ICC from 
the DRC. But because they are aimed at individuals, their effect on 
regimes may be limited. It depends on the roles those individuals play 
in their governments or organizations, the degree to which they are 
easily replaceable, and the extent that they have either assets abroad 
that are affected or any desire to travel. Beyond the specific 
individuals targeted, such sanctions may also act as a warning to 
others in the regime, especially top leaders who the international 
community are hesitant to target lest it complicate the peace process, 
but who still remain vulnerable. This is the aim in South Sudan.
    The record of wider effects are nevertheless mixed. Reports from 
the CAR suggest the threat of more targeted sanctions had some impact. 
But in Sudan, indictment by the ICC of several top officials for their 
part in the genocide in Darfur, have not prevented them from continuing 
in government positions at senior levels. The same is true of some of 
those targeted in South Sudan. While not a scientific conclusion, when 
one looks at the thousands of names on various UN, U.S. and other 
targeted sanctions lists, one can wonder if the overall impact on the 
actions of regimes and armed institutions has been proportionally very 
great.
    That leads to the question of political contexts. Right now, the 
U.S., and other countries and institutions are wrestling with whether 
to impose additional targeted sanctions on individuals in the DRC. The 
immediate justification is these individual's roles in human rights 
violations. But the longer term aim is to pressure President Kabila to 
abide by the constitutional limit on his presidency and to step down in 
December of this year rather than thrust his country into what could be 
widespread instability and chaos. Human rights violations are a 
rightful cause in-and-of themselves, but the broader message of such 
sanctions would be that the regime must stop using repression to 
maintain the president in power.
    But targeted sanctions will have little impact on the ultimate 
objective without a broadly based, unified international diplomatic 
effort to convince the regime to abide by the constitutional limit. 
Such a concerted effort is not yet in place. The African Union has yet 
to weigh in on this matter, divided over how to address concrete 
instances of regime ``extensions." It stumbled over this issue in 
Burundi. Countries surrounding the DRC also have competing interests in 
the mineral rich country with its many ethnic rivalries and frequent 
uprisings abetted from abroad. African countries fought on both sides 
in the previous two ``African World Wars" in the DRC. Without consensus 
within the African Union, it will be hard to exert the political 
pressure that uniquely resides within Africa through its former 
presidents and other political leaders to influence President Kabila to 
change what appears to be his present course. Without such consensus, 
other sanctions would not be enforceable.
    The answer to the current crisis in the DRC is to raise it to a 
high level of international concern and debate, within the African 
Union and the UN. The threat to instability and renewed civil war 
should be analyzed jointly by the UN, the AU, and the institutions of 
neighboring countries. DRC officials should be held to account for how 
they plan to address the crisis and demonstrate that they have a 
realistic path to an election and stability. As consensus is developed 
on both the threat and the means for engaging and pressuring the 
regime, agreement can be reached on the role of sanctions as one tool 
in that undertaking. Should the fragile peace process in South Sudan 
fail, a similar process should be undertaken.
    Four, are we now over- or under-using sanctions in Africa?
    It is easy to reach for the sanctions box when conflict erupts, or 
terrible human rights violations occur. Sanctions make us feel we are 
doing something. Sanctions, especially targeted financial and other 
economic sanctions, allow concerned nations to withhold direct 
participation in, and even indirect support to, what is happening. But 
sanctions are a tool, they are not a policy. Without a policy, without 
a strategy for dealing with what in most cases is a complex political 
and social situation, they are of limited impact.
    Sanctions, moreover, are most effective if aimed at a fairly 
specific objective, i.e., a cease-fire, humanitarian access, or 
participation in a peace process. The more sanctions are linked to 
long-term processes of transformation, which could drag on for years, 
they are less likely to have an effect and support for them will wane. 
Further, the more sanctions aim at or demand processes that threaten 
the political survival of those in power, the less they will be 
effective. That may not be very satisfactory, but true nevertheless. 
Rulers will resist the latter at almost any cost, including those to 
their people. On the other hand, more specific demands such as cease-
fires or peace negotiations may serve the survival interest of the 
regime. Sudan agreed to the allow South Sudan the right of self-
determination and ultimately independence, because it saw continuation 
of the civil war depleting its resources, preventing it from coming out 
of economic and political isolation, and even allowing for a stronger 
internal base for the regime. As President Bashir commented after the 
separation: without the troublesome south, Sudan could now be a unified 
Islamic country. This proved not to be true, but he believed it at the 
time.
    Nevertheless, longer term political transformations are often the 
desired outcome in many countries. Underlying problems of 
marginalization, repression, and other grievances are very likely to 
recur in violence after a piece-meal peace agreement. But for political 
transformations to occur, a different strategy is needed than that 
which ended the conflict. It may include sanctions, but carefully 
layered ones that can be removed as steps toward transformation are 
taken. A transformation strategy must also include engagement with 
leaders, opposition figures, civil society, neighboring countries, and 
regional experts. It should encourage the belief that transformation 
need not be a zero sum game, as it has not been in many other 
transforming countries such as South Korea, Indonesia, and Brazil. 
Political transformation requires the development of truly democratic 
political parties to govern in a transformed polity: democratic and 
inclusive as Nelson Mandela demonstrated in South Africa. These are the 
strategies necessary for countries like Sudan, Eritrea, Ethiopia, and 
others where democratic transformation is essential, but a delicate 
process.
    Let me conclude with an emphasis on building indigenous democratic 
political parties and institutions as an essential part of 
transformation strategies. I remember in 1995 when a delegation of 
Nigerian activists came to see Nelson Mandela, then president of South 
Africa, to appeal for his support for international oil sanctions 
against the regime of Sana Abacha. They pointed out that sanctions had 
helped bring about the end of apartheid in South Africa. Mandela 
replied, ``Yes, sanctions were helpful. But they would not have been 
sufficient if there were not a strong indigenous democratic movement in 
South Africa. Until you have that in Nigeria, sanctions will not 
help.'' Fortunately, today there is a strong democratic movement in 
Nigeria and a remarkable electoral process just took place. Let us hope 
we find the right combination of instruments to help that process 
emerge in other countries whose people yearn for it.

    The views expressed in this testimony are those of the author and 
not the U.S. Institute of Peace.


                               __________

                  Prepared Statement of Sue E. Eckert

    Chairman Flake, Ranking Member Markey, and distinguished members of 
the subcommittee, thank you for the opportunity to appear before you to 
discuss the effectiveness of targeted sanctions in Africa. I applaud 
you for addressing this important instrument of U.S. and international 
peace and security policy, one that does not often receive adequate 
attention.
    My comments today are based on my previous experience as Assistant 
Secretary of Commerce responsible for regulating dual use goods and 
technology, as well as more recent academic research and initiatives to 
strengthen the instrument of UN sanctions. The Watson Institute for 
International and Public Affairs at Brown University has been engaged 
in research on UN targeted sanctions for more than 15 years, 
collaborating with Member States and the Secretariat to make such 
measures more effective. Along with colleagues at The Graduate 
Institute in Geneva, we formed the Targeted Sanctions Consortium (TSC), 
an international group of scholars and practitioners conducting a 
comprehensive and comparative analysis of the impacts and effectiveness 
of UN sanctions, which resulted in publication of the book, Targeted 
Sanctions: The Impacts and Effectiveness of United Nations Action this 
April. In addition to developing new qualitative and quantitative 
databases on the universe of UN sanctions (which also resulted in an 
online tool, SanctionsApp), I also helped to organize with colleagues 
at Compliance and Capacity Skills International, the High Level Review 
of UN Sanctions which focused on strengthening implementation of UN 
sanctions. In this capacity, I've had the opportunity to engage with 
and international policymakers, national regulators, and civil society 
involved in UN and U.S. sanctions. The views expressed today, however, 
are my own, and are not necessarily endorsed by any entity or 
colleagues with whom I am affiliated.
    Due to time constraints and the wealth of experience of other 
witnesses, my statement will focus on the effectiveness of UN sanctions 
in addressing threats to international peace and security in Africa. I 
am happy to provide any additional information, including greater 
statistical analysis based upon our book and other initiatives 
addressing aspects of U.S. sanctions.
Evolution of UN Sanctions \1\
---------------------------------------------------------------------------
    \1\ For more detailed discussion of the evolution of UN targeted 
sanctions, see ``The Role of Sanctions'' in The UN Security Council in 
the 21st Century.
---------------------------------------------------------------------------
    The past quarter century has witnessed a significant transformation 
in the use of UN targeted sanctions. Instead of comprehensive economic 
embargoes such as the one employed against Iraq in the early 1990s with 
resulting injurious humanitarian consequences, the Security Council 
deliberately shifted to ``targeted" or ``smart" sanctions as a means of 
focusing measures on the decision-makers and their principal supporters 
responsible for violations of international norms. All UN sanctions 
since 1994 have been targeted in some manner.
    As global threats have evolved, innovation in the design and 
application of UN sanctions has ensued. From the original focus on 
primarily cross-border attacks and civil wars in Africa, the rationale 
for sanctions has expanded to encompass prevention of new forms of 
human rights violations (such as sexual and gender-based violence and 
recruitment of child soldiers), thwarting the development of weapons of 
mass destruction and their delivery systems, stemming terrorism, 
countering the financing of conflict through exploitation of natural 
resources or criminal activities, controlling natural resources to 
prevent exploitation of mineral development, restoring democratically 
elected governments, and countering violent extremism. At the same 
time, UN sanctions are increasingly used along with other crisis 
management tools--diplomacy, mediation, peacekeeping, referrals to 
international judicial processes, as well as the imposition of 
sanctions by entities other than the UN, including regional groups as 
well as individual countries.
    With UN sanctions targeting specific goods, services, individuals 
and entities, new issues have arisen over time--the need to ensure that 
UN sanctions are reconciled with the rule of law, particularly respect 
for due process and human rights; the focus on nonstate actors; new 
expert mechanisms to monitor implementation; and greater reliance on 
the private sector to implement sanctions, requiring new partnerships 
and strategies to ensure effectiveness. These institutional dynamics 
reflect the need for the Security Council, the Secretariat and UN 
agencies, Member States, and related international actors to adapt 
continually to the intricacies of new threats to international peace 
and security.
Objectives and Types of UN Sanctions in Africa \2\
---------------------------------------------------------------------------
    \2\ See also Appendices 2 and 3 for more detail on the primary 
objectives of UN African sanctions and a chart on African states 
subject to UN and African regional sanctions.
---------------------------------------------------------------------------
    Under Chapter VII of the United Nations Charter, the Security 
Council imposes sanctions to maintain or restore international peace 
and security. Sanctions have been used for a variety of purposes, and 
have expanded over time as the Security Council has encountered a 
broader array of threats to international peace and security. Sanctions 
have been used to neutralize spoilers in conflict and peacekeeping 
contexts, and the Council has signaled its intention to sanction 
recruiters of child soldiers, suspected pirates, and groups using 
natural resources, including wildlife products, to finance conflict. 
Sanctions have also been focused on actors disrupting peace agreements 
and peacekeeping missions, those involved in unconstitutional changes 
of government (Cote d'Ivoire, Sierra Leone, and Guinea Bissau). Today, 
the UN utilizes sanctions to address six general categories of threats 
to international peace and security: armed conflict (including support 
for peace negotiations and peace enforcement often in African 
countries), terrorism, WMD proliferation, unconstitutional changes of 
government, governance of resources, and protection of civilians.\3\
---------------------------------------------------------------------------
    \3\ Principal objectives of sanctions referred to here reflect the 
general categories adopted by the Targeted Sanctions Consortium to 
differentiate the political objectives that UN sanctions seek to 
achieve. Following are the categories and percentages of sanction 
episodes determined by the TSC: armed conflict (cease hostilities, 
negotiate or enforce peace agreement, support peacebuilding) 59 
percent; counterterrorism 14 percent; nonproliferation 11 percent; and 
support democracy (restoration of an elected government) 10 percent. 
The remaining includes protection of civilians under the 
Responsibility-to-Protect, support of judicial processes, and more 
effective governance of natural resources. While respect and support 
for human rights is a frequently cited rationale for UN sanctions, 
human rights is rarely a primary objective of sanctions.
---------------------------------------------------------------------------
    To address these challenges, the Security Council employs sanctions 
for three strategic purposes: 1) to coerce targets into changing 
policies or behavior (the most widely perceived goal of sanctions); 2) 
to constrain targets in their ability to conduct proscribed activities; 
and 3) to signal support for an international norm or stigmatize 
targets. Such purposes are not mutually exclusive, and most sanctions 
have multiple objectives.\4\ For example, nonproliferation sanctions 
against Iran and North Korea attempted to change regimes' behavior and 
to stigmatize their violations of nonproliferation norms, but primarily 
focused on constraining access to goods, technology, and finance that 
could assist WMD programs. All UN sanctions address threats to 
international peace and security and involve signaling or stigmatizing 
in some manner.
---------------------------------------------------------------------------
    \4\ Notwithstanding the multiple purposes of sanctions, popular 
discourse remains fixated on the coercive aspect, often to the 
exclusion of the other purposes. Public commentary usually focuses on 
whether sanctions ``work'' in forcing a change of behavior, failing to 
understand and appreciate the important constraining and signaling 
functions of UN sanctions.
---------------------------------------------------------------------------
    Sanctions are targeted in variety of ways-against individuals, 
corporate entities (e.g., firms, political parties, or other nonstate 
actors such as UNITA, al-Qaeda, ISIL), sectors of an economy (e.g., 
aviation or arms, financial, or commodities such as oil, diamonds, or 
timber); or specific regions of a country (as in Darfur in western 
Sudan). Targeted sanctions attempt to deny targets the means to wage 
conflict or otherwise threaten international peace and security, while 
minimizing the impact on innocent civilians and the population as a 
whole. Specifically, targeted measures include asset freezes, travel or 
visa restrictions, aviation bans, arms embargoes, and restrictions on 
commodities such as diamonds, timber, oil, charcoal, and luxury goods. 
The most frequently utilized sanctions include arms embargoes, and 
financial and travel measures.
    Currently the UN maintains thirteen sanctions regimes, including 
eight country-based regimes in Africa--Somalia/Eritrea, the Democratic 
Republic of Congo, Sudan, Libya, Guinea-Bissau, the Central African 
Republic, Yemen, and South Sudan.\5\ The following table provides an 
overview of sanctions imposed on African countries by the United 
Nations.
---------------------------------------------------------------------------
    \5\ The remaining regimes include sanctions against al-Qaeda/ISIL 
and globally affiliated terrorist groups, the Taliban, Iraq, 
nonproliferation sanctions on the Democratic People's Republic of 
Korea, and individuals suspected of involvement in the 2005 bombing in 
Beirut that killed then-Lebanese Prime Minister Rafiq Hariri.

                                             UNITED NATIONS SECURITY COUNCIL SANCTIONS ON AFRICAN COUNTRIES
                                                                       (1990-2016)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           Targeted
                                    --------------------------------------------------------------------------------------------------------------------
               Cases                                                                                                                           Panel of
                                         Arms      Financial      Travel      Aviation       Oil        Diamonds      Timber       Other       Experts
--------------------------------------------------------------------------------------------------------------------------------------------------------
Somalia/Eritrea (1992-.............           X            X            X           --           --           --           --        X (i)            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Libya I (1992-2003)................         [X]          [X]           --          [X]           --           --           --     [X] (ii)           --
 
Libya II (2011-....................           X            X            X           --            X           --           --           --            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Liberia] (1992-2016)..............         [X]          [X]          [X]           --          [X]          [X]           --          [X]
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Angola (UNITA)] (1993-2002).......         [X]          [X]          [X]           --          [X]          [X]           --    [X] (iii)          [X]
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Rwanda] (1994-2008)...............         [X]           --           --           --           --           --           --           --     [X] (iv)
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Sudan I] (1996-2001)..............          --           --          [X]          [X]           --           --           --      [X] (v)
 
Sudan II (2004-....................           X            X            X           --           --           --           --           --            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Sierra Leone] (1997-2010).........         [X]           --          [X]           --          [X]          [X]           --           --          [X]
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Eritrea/Ethiopia] (2000-2001).....         [X]           --           --           --           --           --           --           --           --
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                        UNITED NATIONS SECURITY COUNCIL SANCTIONS ON AFRICAN COUNTRIES--continued
                                                                       (1990-2016)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           Targeted
                                    --------------------------------------------------------------------------------------------------------------------
               Cases                                                                                                                           Panel of
                                         Arms      Financial      Travel      Aviation       Oil        Diamonds      Timber       Other       Experts
--------------------------------------------------------------------------------------------------------------------------------------------------------
Democratic Republic of Congo (2003-           X            X            X            X           --           --           --           --            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
[Cote d'Ivoire] (2004-2016)........         [X]          [X]          [X]           --           --          [X]           --           --          [X]
--------------------------------------------------------------------------------------------------------------------------------------------------------
Guinea-Bissau (2012-...............          --           --            X           --           --           --           --           --           --
--------------------------------------------------------------------------------------------------------------------------------------------------------
Central African Republic (2013-....           X            X            X           --           --           --           --           --            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Yemen (2014-.......................           X            X            X           --           --           --           --           --            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
South Sudan (2015-.................          --            X            X           --           --           --           --           --            X
--------------------------------------------------------------------------------------------------------------------------------------------------------
Brackets [ ] indicate UN sanctions terminated
(i) Charcoal exports and imports
(ii) Oil-related equipment
(iii) Sanctions against UNITA included diplomatic measures (closing of offices), a ban on the supply of aircraft, spare parts and servicing, prohibition
  on equipment for mining/mining services, and a transportation ban on motorized vehicles, watercraft, and ground or water-borne services to areas in
  Angola
(iv) Commission of Inquiry to collect information on the arms embargo (first expert-panel type mechanism)
(v) Diplomatic restrictions including reduction in the number and level of staff at Sudanese missions

    While more than sixty percent (eight of thirteen) of current UN 
regimes remain focused on armed conflict and peacebuilding objectives 
in African countries, sanctions focused on the threat of terrorism (al-
Qaeda, ISIL, the Taliban) and the threat of nuclear proliferation 
(North Korea) receive a disproportionate share of the Security 
Council's attention and resources.\6\
---------------------------------------------------------------------------
    \6\ While most UN sanctions are aimed at ending conflict, 
supporting peacebuilding, or restoring democratically elected 
governments in Africa (68% of TSC episodes), there is an inverse 
relationship between the number of sanctions regimes and the resources 
put at their disposal. See appendices B and C in the chapter by Alix 
Boucher and Caty Clement, ``Coordination of UN sanctions with other 
actors and instruments," in Targeted Sanctions.
---------------------------------------------------------------------------
Research Results
    The Targeted Sanctions Consortium adopted two distinctive 
conceptual innovations in assessing the impact and effectiveness of UN 
sanctions: first, the unit of analysis is a case episode rather than a 
country sanctions regime, some of which have been in existence for more 
than twenty years. This allows for a more detailed assessment of 
changes in types and purposes of targeted sanctions over time (as a 
result, the TSC database includes 23 different country regimes broken 
down into 63 case episodes for comparative analysis). Secondly, 
sanctions are assessed according to three different (and frequently 
simultaneous) purposes: to coerce a change in the target's behavior; to 
constrain a target from engaging in proscribed activity (by denying 
access to critical resources such as financing, technology, etc.); and 
to signal and/or stigmatize a target or others about the violation of 
an international norm.

    Following are TSC findings relevant to African sanctions:


   UN sanctions in Africa constitute the majority of all UN 
        sanctions--about 70% of the episodes. In the early days, 
        sanctions frequently were imposed in an ad hoc manner, without 
        a coherent coordinated strategy; rather than as part of a well-
        designed comprehensive approach to address conflict, sanctions 
        were often the tool of first resort that substituted for 
        policy. While understandable that during times of crisis, 
        governments act quickly, the use of sanctions to demonstrate 
        resolve without integrating them into an overall strategy is 
        largely ineffective.
          For this reason, it is important that the objectives of 
        sanctions are clearly articulated at the outset, for the 
        targets to understand precise actions that need to be taken for 
        sanctions to be lifted. Too often, vague criteria and moving 
        goalposts prolong sanctions unnecessarily. The Security Council 
        (and even Member States) has difficulty terminating sanctions 
        regimes once imposed (for example, in Liberia). Automatic 
        extension of sanctions regimes diffuses signals as to expected 
        actions, undermining their credibility.

   Targeting (the list of specific individuals and entities subject to 
        sanctions) is important and should reflect the purposes of 
        sanctions. Too many, or more commonly in the case of African 
        sanctions, too few, or even wrong targets undermine credibility 
        of sanctions.

   Different types of targeted sanctions differ in degree of 
        discrimination.\7\ With the exception of the 2011 sanctions on 
        Libya, most UN sanctions largely remain targeted in design. In 
        implementation of sanctions, however, Member States or private 
        sector actors concerned with the reputational risks if found to 
        be noncompliant, may interpret measures in an overly broad 
        manner, which expands the impact and unintended consequences of 
        sanctions.
---------------------------------------------------------------------------
    \7\ Degrees of Discrimination (or ``comprehensiveness'') of 
different types of targeted sanctions include the most discriminating/
targeted individual sanctions (e.g. travel ban, assets freeze, 
diplomatic restrictions (in which only one sector of government 
directly affected), to arms embargoes (which are largely limited to 
affecting fighting forces) and commodity sanctions (e.g. diamonds, 
timber, charcoal which tend to affect some regions disproportionately), 
to broad sectoral sanctions such as oil and financial (which affect an 
entire population and therefore are the least discriminating of 
targeted sanctions). Comprehensive sanctions are non-discriminating.


---------------------------------------------------------------------------
    Following are characteristics of effective UN sanctions:


   Relationship to other policy instruments.
          UN sanctions do not exist in isolation, and always include 
        the presence of other policy instrument seeking to achieve 
        related objectives. Diplomatic negotiations occurred more than 
        95% of the time, and peacekeeping forces are on the ground in 
        62% of episodes. Some aspects of force (i.e. limited strikes 
        and operations, robust military missions, no fly zone or naval 
        blockages) were used 52% of the time, and legal tribunals were 
        present in 46% of the cases. Sanctions need to be part of a 
        broader coordinated strategy. (Effective sanctions are 
        associated with multiple (at least 3) policy instruments).

   Objectives and types of sanctions.
          In terms of effectiveness, UN targeted sanctions are 
        effective more than 20% of the time and are nearly three times 
        more effective in constraining or signaling than coercing a 
        change in target behavior.
          Arms embargos, the most frequently imposed sanction 
        especially in African conflicts (in 89% of episodes) are the 
        least effective especially when applied in isolation. Arms 
        embargoes are frequently the first type of sanction imposed.
          Most targeted sanctions are employed in combination with 
        other sanctions measures. Travel bans are the next most 
        utilized measure (69% of cases), followed by asset freezes 
        (66%); travel bans are frequently employed in combination with 
        asset freezes (73% of cases).
          Commodity sanctions are employed in 40% of cases, and always 
        in situations of armed conflict in Africa (77%). Sanctions on 
        diamonds (Liberia, Sierra Leone, Angola, Cote d'Ivoire), oil 
        (Libya, Angola, Sierra Leone), charcoal (Somalia), timber 
        (Liberia), when appropriate, appear highly effective, 
        especially for purposes of constraint (69%) and signaling 
        (76%).
          Also, secondary sanctions applied to neighboring states, 
        although applied infrequently (only two times or 6% of cases - 
        against Liberia in the case of its support for the RUF in 
        Sierra Leone, and against Eritrea over its arms exports to Al 
        Shabaab in Somalia), appear to be highly effective.

   Importance of regional sanctions.
          The past several decades have witnessed an increase in 
        sanctions applied by regional organizations. In 74% percent of 
        the episodes analyzed by the TSC, other regional sanctions of 
        the European Union, the African Union,\8\ or the Economic 
        Community of West African States preceded initial imposition of 
        UN sanctions. Often resulting from a request by a regional body 
        that has already imposed individual sanctions (travel ban or 
        assets freeze) on targets, UN sanctions often complement pre-
        existing sanctions, and effectiveness appears enhanced by 
        regional measures.
---------------------------------------------------------------------------
    \8\ The African Union is primarily concerned with non-
constitutional changes of government and routinely applies sanctions to 
its own members. ECOWAS has sanctioned about half of its members.
---------------------------------------------------------------------------
          Moreover, targeted sanctions are more complicated to design 
        and implement than comprehensive economic measures; greater 
        technical expertise is required to administer asset freezes, 
        enforce travel sanctions, implement arms embargoes, and 
        calibrate sanctions. The 2011 sanctions on Libya, while 
        targeted on the financial and oil sectors, affected a 
        significant volume of assets (reportedly in excess of $160 
        billion) and posed significant complications for the sanctions 
        committee and national governments. Less targeted financial 
        measures against a central bank or economic sector such as 
        petroleum, affect a greater portion of the population as a 
        whole and can have the effect of making sanctions more 
        comprehensive.


    I also want to call attention to the fact that even targeted 
sanctions have unintended consequences. TSC research highlighted some 
of these effects, including increases in corruption and criminality, 
strengthening of authoritarian rule, and decline in legitimacy of 
Security Council. Additional consequences of international policies/
sanctions related to countering the financing of terrorism/anti-money 
laundering also include ``derisking'' or the inability of remitters or 
money service businesses and charities to access financial services. 
These problems have been particularly acute in African countries such 
as Somalia, Sudan, and Angola where humanitarian assistance needs are 
greatest. Access by nonprofit groups to banks and international funds 
transfers necessary to get aid into regions of conflict is the subject 
of new research funded by the Gates Foundation.
    Security Council sanctions have played an important role in 
numerous African countries, helping to end violence, promote peace 
agreements and transition to post-conflict societies, gain governmental 
control of natural resources, and support transitions to 
democratically-elected governments. Appendix 1 provides examples of 
effective African sanctions for the purposes of coercion, constraint, 
and signaling. Institutional learning by the Security Council and 
States over the past two decades implementing UN sanctions reflects 
undeniable progress, but challenges persist that continue to hamper 
more effective utilization of the sanctions instrument.
Challenges to Effective Sanctions
    As the international community increasingly relies on United 
Nations sanctions, problems regarding implementation have become more 
pronounced. Weak implementation, inadequate monitoring and enforcement, 
and misperceptions and a lack of understanding constitute the primary 
obstacles to more effective UN sanctions.


   Weak Implementation and Capacity.
          Many countries lack basic legal authority and administrative 
        mechanisms to translate UN sanctions into domestic law and 
        regulations, fundamental to give full force to sanctions. The 
        ability to freeze assets without prior judicial action, 
        exercise appropriate border and visa controls, and enforce 
        restrictions on exports of arms and dual-use goods and 
        technology is often limited or nonexistent. In many cases, 
        failure to implement sanctions boils down to simple lack of 
        capacity at the domestic level. There are no systematic UN 
        attention, resources, and training to support national 
        sanctions capacity building.

   Inadequate Monitoring and Enforcement.
          Outside the work of panels of experts, there is little 
        tracking of sanctions implementation or other means to monitor 
        national compliance efforts. There is no enforcement mechanism 
        or body to address sanctions violations. When no consequences 
        result, targets come to regard the threat of coercion as empty, 
        further eroding the credibility of sanctions.
          With P5 members' predominant focus on counterterrorism and 
        nonproliferation issues and disproportionate attention and 
        resources, sanctions dealing with armed conflict, especially in 
        Africa receive far fewer resources and attention, 
        notwithstanding the fact that they constitute the majority of 
        UN sanctions. Distinct challenges posed by African regimes-
        including inconsistent cooperation with peacekeeping operations 
        and the failure to devote adequate attention to human rights, 
        conflict prevention, and peace enforcement sanctions, translate 
        into weaker enforcement than for counterterrorism and 
        nonproliferation sanctions.

   Misperceptions and Lack of Understanding.
          Notwithstanding the move to targeted measures and significant 
        procedural innovations, public perception remains largely 
        skeptical of sanctions. Many UN conflict resolution actors view 
        sanctions as politically toxic complications for their 
        mandates, and shy away from association, contributing to a lack 
        of coherence and effective implementation of UN peace and 
        security policies.
          More broadly, public understanding of the purpose and effects 
        of sanctions is extremely limited. Fears of the consequences of 
        comprehensive economic sanctions persist, despite the fact that 
        the last time the Security Council imposed comprehensive 
        measures was in 1994. Policy debates remain fixated on whether 
        they ``work'' in forcing a change of behavior, failing to 
        recognize the important constraining and signaling functions of 
        UN sanctions. Perceptions that ``sanctions don't work,'' 
        especially related to Africa, contribute to a profound cynicism 
        regarding the utility and efficacy of sanctions.
Recommendations to Strengthen UN Sanctions in Africa
    P5 interests will continue to diverge, especially those related to 
national economic interests which loom large in Africa. Nevertheless, 
more can and should be done to prioritize and strengthen the 
implementation of UN sanctions.\9\ Recommendations for UN sanctions to 
be more effective instruments of international conflict resolution 
include:
---------------------------------------------------------------------------
    \9\ The 2015 Compendium of the High Level of UN Sanctions contains 
a detailed discussion of these issues annd related recommendations. See 
http://www.hlr-unsanctions.org/.


   Improve Member States and Regional Capacities to Implement 
        Sanctions.
          Notwithstanding practical limitations on the adoption of new 
        sanctions, as witnessed in the case of Syria, the Council and 
        Member States should vigorously implement and enforce all 
        existing UN sanctions, focusing especially on African sanctions 
        and not just those related to nonproliferation and 
        counterterrorism. Greater U.S. leadership and focus on 
        conflict-related sanctions is important for sustained 
        credibility of sanctions. The High Level Review of UN Sanctions 
        recommended that new measures and resources be undertaken for 
        sanctions assistance generally, including cooperation with 
        regional organization in strengthening and coordinating efforts 
        to implement asset freezes, travel bans, and arms embargos. In 
        particular, the African Union has expressed interest in such 
        assistance previously and represents an ideal opportunity to 
        develop new approaches to capacity-building training and 
        services.

   Enhance Sanctions Monitoring and Enforcement.
          More vigorous monitoring and enforcement of UN sanctions, as 
        well as specific consequences for noncompliance, would 
        strengthen their credibility. When the Security Council 
        determines that a country is deliberately violating Council 
        sanctions, consequences should result, with the Council 
        developing a menu of secondary sanctions against UN members 
        found to violate sanctions. Member States should revive 
        enforcement assistance, particularly initiatives similar to the 
        sanctions assistance missions (SAMs) deployed in the early 
        1990s to monitor implementation of sanctions against the former 
        republic of Yugoslavia, expanding beyond border controls to 
        enforcement of travel bans, financial sanctions, and arms 
        embargoes.

   Strengthen Cooperation with Regional Groups and Civil Society.
          Coordination of regional measures with UN and national 
        sanctions should be strengthened, and civil society, including 
        both the private sector and NGOs, should become more involved 
        partners in implementing UN sanctions so as to promote enhanced 
        effectiveness.

   Develop Better Analysis and Understanding of Sanctions.
          Finally, the UN and Member States should promote better 
        understanding and analysis of conditions under which more 
        effectual sanctions are likely to result. Effective 
        implementation of sanctions is made more difficult by the lack 
        of accurate information and misunderstanding about the impacts 
        and effectiveness of targeted measures. Greater understanding 
        of the optimal conditions under which sanctions are most 
        effective, and appreciation that sanctions have multiple and 
        simultaneous purposes (coercion, constraint, and signaling), 
        will result in more realistic expectations of what sanctions 
        can reasonably be expected to achieve. Since UN targeted 
        sanctions are nearly three times more effective in constraining 
        and signaling targets than in coercing a change of behavior; 
        more resources should be invested in sanctions intended to 
        constrain/signal, given their relative effectiveness.
Conclusion
    UN targeted sanctions have made important contributions in 
achieving U.S. policy objectives, but to a limited degree and not 
without important unintended consequences. Progress has been made in 
recent years to enhance implementation, but more needs to be done for 
sanctions to be used to full effect in advancing U.S. and international 
security objectives in Africa.
    Notwithstanding the mixed record of effectiveness of UN sanctions, 
the fact remains that sanctions are one of the few tools of the 
international community to promote international peace and security, 
short of the use of force. Sanctions will continue as an essential 
component of U.S. and the Security Council's response to international 
threats.
    Concerted attention, leadership, and action by like-minded states 
to strengthen the implementation and enforcement of sanctions, as well 
as enhancing the capacity of Member States to carry out their 
obligations, are necessary to make sanctions an even more potent and 
indispensable tool of collective security in Africa.
    Thank you Mr. Chairman for the opportunity to discuss the 
effectiveness of U.S. and international sanctions as policy tools in 
Africa. I look forward to questions and being of assistance to the 
subcommittee as you continue to address these critical foreign policy 
challenges.


                               __________

        APPENDIX 1: Examples of Effective African Sanctions \10\
---------------------------------------------------------------------------

    \10\  From Targeted Sanctions Consortium database at http://
graduateinstitute.ch/home/research/centresandprogrammes/international-
governance/research-projects/UN--Targeted--Sanctions/targeted-
sanctions-consortium-da.html.
---------------------------------------------------------------------------

                       Effective Coercion: Libya

           libya--episode 3 (5 april 1999-12 september 2003)
Summary
    Sanctions were suspended on 5 April 1999 once the two Lockerbie 
suspects were handed over to the special Scottish Court in the 
Netherlands (as specified in UNSCR 1192) and terminated on 12 September 
2003 (UNSCR 1506) once compensation was provided and Libya renounced 
terrorism.
Purposes
    Coerce the Government of Libya to provide compensation and renounce 
terrorism; and signal Libya and international community about norm 
against state-sponsored terrorism.
Sanction type
    All sanctions (aviation ban, arms imports embargo, diplomatic 
sanctions, government asset freeze, and oil services equipment ban) 
were suspended in April 1999 (seven months after the conditions for 
suspension were set in UNSCR 1192) but not terminated until September 
2003.
Effectiveness
Coercion (Effective)
    Policy outcome: 4/5, Suspects were turned over, trials conducted, 
compensation provided, and terrorism renounced, but not on the precise 
terms of the original UNSCRs.

    UN sanctions contribution: 4/5, Suspension of sanctions was 
significant to reinforce legal procedures underway in domestic and 
international courts regarding compensation.

Constraint (N/A)
    Policy outcome: N/A.

    UN sanctions contribution: N/A.
Signaling
    Policy outcome: 3/5, Norms against state-sponsored terrorism were 
consistently articulated in relevant UNSCRs (1192 and 1506), but 
Qadhafi was able to mobilize support from the AU. Arab League, Non-
Aligned Movement and Organization of the Islamic Conference to limit 
the extent of his stigmatization.

    UN sanctions contribution: 4/5, Sanctions suspension created an 
incentive to accept norms against state-sponsored terrorism in order 
for Libya to be re-legitimized and reintegrated into the international 
community.

    Unintended consequences: Strengthening of authoritarian rule

                               __________


                     Effective Constraint: Liberia

           liberia--episode 4 (22 december 2003-16 june 2006)
Summary
    Following the departure of Charles Taylor and progress in the peace 
process in Sierra Leone, a peace enforcement sanctions regime was 
established in Liberia to ensure compliance with the comprehensive 
peace agreement signed in Accra on 18 August 2003 and to support the 
transitional government of national unity. The Liberian ceasefire was 
maintained, DDR implemented, and elections were held during this 
episode. UNSCR 1521 lifted the previous sanctions and immediately re-
imposed them in support of a new objective: peace enforcement. The 
Council also articulated specific criteria for lifting.
    UNSCR 1532 imposed financial sanctions on Charles Taylor, his 
family, and other close associates for misappropriating Liberian funds 
and property and using them to destabilize the transitional government 
during the early phase of this episode. Taylor appeared before the 
Sierra Leone Special Court in April 2006 and was extradited to the 
Hague in June 2006. Elections were held in 2005 with Ellen Johnson 
Sirleaf taking office January 2006.
Purpose
    Constrain and signal parties that might threaten the comprehensive 
peace agreement and the transitional government of national unity.
Sanction type
    Ongoing arms imports embargo (now exempting internationally trained 
armed forces and police), ban on exports of rough diamonds, travel ban 
on individuals undermining peace and stability or supporting armed 
rebel groups in Liberia and the subregion (including senior members of 
former President Charles Taylor's Government, their spouses, and 
members of Liberia's former armed forces retaining links to Charles 
Taylor), and ban on export of timber (until certification schemes are 
in place). Newly imposed asset freeze on Charles Taylor, his family 
members, and close associates (from March 2004).
Effectiveness
Coercion (N/A)
    Policy outcome: N/A.

    UN sanctions contribution: N/A.
Constraint--(Effective)
    Policy outcome: 4/5, Panel of Experts concludes that sanctions 
helped to stabilize the situation in Liberia; elections were held, DDR 
took place, though Taylor tried to destabilize the process at the 
outset.

    UN sanctions contribution: 3/5, Sanctions against the remnants of 
Taylor's regime reinforced the peacebuilding efforts of the government 
of Liberia, but international tribunals (the Sierra Leone Special Court 
and ICC) played a major role in constraining Charles Taylor.
Signaling--(Effective)
    Policy outcome: 5/5, Potential spoilers were deterred from 
destabilizing the regime. UN sanctions contribution: 3/5, Sanctions 
reinforced the peacebuilding efforts of the government of Liberia and 
international tribunals played a major role in constraining the 
remnants of Charles Taylor's regime.
Unintended consequences
    Increase in international enforcement capacity in different issue 
domains, humanitarian consequences, widespread harmful economic 
consequences.


                               __________

                      Effective Signaling: Angola

          angola--episode 4 (12 january 1999 9 december 2002)
Summary
    The shooting down of the second of two UN aircraft over UNITA 
controlled territory prompted strong reaction from UNSC (UNSCR 1221). 
Given the return to full-scale war, UN peacekeepers were removed in 
February 1999.
    Canadian Ambassador Robert Fowler assumed chair of Angola Sanctions 
Committee in January, which sets up two expert panels in May (one on 
financing of UNITA and another on arms, later merged). This results in 
a major strengthening of the sanctions regime in terms of 
implementation at the UN level. The PoE ``Fowler Report'' is released 
and created a storm of protest by naming and shaming of African heads 
of state for their role in undermining UN sanctions. UNSC sets up a 
mechanism for monitoring sanctions violations (threat of secondary 
sanctions) in April 2000, but no secondary measures imposed.
    Sanctions were continued in December 2000, and there was evidence 
that sanctions monitoring had disrupted UNITA's supply lines. A 
December 2001 offensive against UNITA ended with Savimbi (and his Vice 
President's) death in February 2002.

    Phase out--A truce quickly followed in March, negotiations in 
April, and UNITA dismantled its armed wing in August. UN lifted 
sanctions in December 2002.

    UNSCRs during the episode included UNSCR 1221 (January 1999) which 
expressed outrage and specifically named Savimbi and UNSCR 1237 (May 
1999), which created a panels of experts. In March 2000 the ``Fowler 
Report" S/2000/203 was released. Following this, UNSCR 1295 (April 
2000), established a monitoring mechanism and UNSCR 1448 (December 
2002) terminated sanctions immediately before Angola joined the UNSC.
Purposes
    Coerce UNITA to cease hostilities and implement the peace 
agreement; constrain UNITA from being able to act autonomously; 
stigmatize UNITA and its supporters in other African countries 
(including heads of state).
Sanction type
    Ongoing arms imports embargo, petroleum and petroleum products 
imports ban, and aviation ban on UNITA (except through points of entry 
named by the Government of Angola), asset freeze on UNITA, senior UNITA 
officials, and their adult family members, diamond exports ban, 
prohibition on supply of mining and ground or waterborne transportation 
services and equipment into UNITA controlled areas. Travel ban on 
senior UNITA officials and their adult family members and visa 
cancelation measures were suspended in May 2002 and lifted later that 
year, in November. Diplomatic sanctions on UNITA in the form of 
limitations of diplomatic representation persisted until the end of the 
sanctions regime.
Effectiveness
Coercion (Ineffective)
    Policy outcome: 1/5, Sanctions contributed to shifting the balance 
of forces, but Savimbi showed no sign of concessions before his death.

    UN sanctions contribution: 2/5, Ultimately, the use of force was 
decisive.
Constraint (Effective)
    Policy outcome: 5/5, Diplomatic sanctions terminated much of 
UNITA's official presence abroad; diamond sanctions weakened the 
prospects of UNITA's raising of funds; squeezing the financial sources 
led to no salt, no beer, and demoralization of Savimbi's forces.

    UN sanctions contribution: 4/5, Acknowledgment by the target of the 
impact of sanctions.
Signaling (Effective)
    Policy outcome: 5/5, Savimbi became the principal target and was 
thoroughly isolated by UNSCR 1221.

    UN sanctions contribution: 4/5, Diplomatic pressure was also 
significant.
Unintended consequences
    Increase in corruption and criminality, strengthening of 
authoritarian rule, decline in the credibility and/or legitimacy of UN 
Security Council, increase in international enforcement capacity in 
different issue domains.


                               __________

                               APPENDIX 2

                PRIMARY OBJECTIVE OF UN AFRICAN SANCTIONS
------------------------------------------------------------------------
          Primary Objectives                      TSC Episodes
------------------------------------------------------------------------
Counterterrorism                       5  Libya in the 1990s (1-3),
                                        Sudan in the 1990s (1-2)
------------------------------------------------------------------------
Good governance                        1  Liberia (5)
------------------------------------------------------------------------
Democracy support                      3  Sierra Leone (1), Cote
                                        d'Ivoire (4), Guinea-Bissau (1)
------------------------------------------------------------------------
Armed conflict (cease hostilities,     32  Somalia (1-5), Liberia (1-5),
 negotiation of settlement, peace       Angola (1-4), Rwanda (1-2),
 enforcement. support peacebuilding)    Sierra Leone (2-5), Ethiopia-
                                        Eritrea (1), DRC (1-4), Sudan
                                        over Darfur (1-2), Cote d'Ivoire
                                        (1,2,3,5), Libya in 2011 (3),
                                        CAR (1)
------------------------------------------------------------------------
Protection of civilians under R2P      2  Libya in 2011 (1-2)
========================================================================
  Total                                43  UN African episodes out of a
                                        total of 63 UN Episodes
                                        (original TSC database)
------------------------------------------------------------------------
Table created by Andrea Charron and Clara Portela, ``The relationship
  between UN and regional sanctions regimes,'' in Targeted Sanctions:
  The Impacts and Effectiveness of United Nations Action, pg.104.



                               __________

                               APPENDIX 3

                                 AFRICAN STATES SANCTIONED BETWEEN 1990 AND 2013
----------------------------------------------------------------------------------------------------------------
                                           UN                    AU                 ECOWAS             SADC
----------------------------------------------------------------------------------------------------------------
Number of African States                13                    10                   7                    1
 Sanctioned
----------------------------------------------------------------------------------------------------------------
Number of Member States           193 (54 African)            54                   15                   15
----------------------------------------------------------------------------------------------------------------
Percent of States Sanctioned      7 (24 if Africa             19                   47                   7
                                   only)
----------------------------------------------------------------------------------------------------------------
Which States                      Angola, CAR, Cote     CAR, Comoros, Cote   Cote d'Ivoire,       Madagascar
                                   d'Ivoire, DRC,        d'Ivoire, Guinea,    Guinea, Guinea-
                                   Eritrea (twice),      Guinea-Bissau,       Bissau, Liberia,
                                   Ethiopia, Guinea-     Madagascar, Mali,    Mali, Niger,
                                   Bissau, Liberia,      Mauritania, Niger,   Sierra Leone
                                   Libya (twice),        Togo
                                   Rwanda, Sierra
                                   Leone, Somalia,
                                   Sudan (twice)
----------------------------------------------------------------------------------------------------------------
Most Sanctioned States            Sudan (twice), Libya  Guinea-Bissau        Guinea-Bissau        ..............
                                   (twice), Eritrea      (twice),             (twice)
                                   (twice)               Mauritania (twice)
----------------------------------------------------------------------------------------------------------------
Note: States sanctioned by three or more organizations are emboldened.
Table created by Andrea Charron and Clara Portela, as contained in ``The relationship between UN and regional
  sanctions regimes,'' in Targeted Sanctions: The Impacts and Effectiveness of United Nations Action, pg. 106.



                               __________

                 Prepared Statement of Dr. Todd J. Moss

    Thank you Chairman Flake, Ranking Member Markey, and other members 
of the subcommittee. I appreciate being invited to testify again before 
the subcommittee and the opportunity to highlight ways the United 
States can more effectively pursue its objectives in Sub-Saharan 
Africa, a region of growing economic and national security importance. 
I proudly served in the State Department under Secretary Condoleezza 
Rice and continue to work closely on U.S.-Africa policy as a researcher 
at the Center for Global Development.
    I have three points about the utility of U.S. sanctions, and one 
clarification. I will conclude by highlighting each point using the 
troubled case of Zimbabwe.
    First, sanctions are a visible and potent political signal from the 
world's most powerful nation. Financial and travel restrictions can be 
a public declaration against tyranny and an affirmative statement of 
American values. If you steal elections, you don't get to send your 
children to school in Boston. If you rob public coffers, you don't get 
to invest in California real estate. If you mistreat your own people, 
you don't get to seek medical care in Houston hospitals. If anything, 
this forceful statement that the United States will not turn a blind 
eye to the most oppressive, violent, and kleptocratic regimes is not 
used enough. For example, it is time for serious consideration of 
adding sanctions to political leaders in the Gambia.
    Second, well-crafted and aggressively executed targeted sanctions 
can have a significant impact on influencing the decisions and policies 
of regimes and bad actors. Both financial sanctions implemented by the 
Treasury Department and travel sanctions imposed by the State 
Department can have direct traceable effects when policymakers have 
clear concrete objectives in mind and the intelligence community is 
given the time and means to identify financial levers and 
vulnerabilities. However, for such sanctions to be effective, they must 
be imposed within a broader strategy that includes other levers of 
power. Sanctions are one pressure point, but they must be accompanied 
by unambiguous diplomatic messages and through alliances with other 
powers that share our objectives. Congressional action can be 
motivating, but overly-prescriptive legislation can be blunt and 
static, which can undermine smart policy by reducing the scope for 
future action.
    Third, regime change is the wrong metric for success. Critics may 
complain that sanctions do not work if a target regime survives. Yet no 
one claims, nor should anyone expect, that sanctions on their own will 
bring down a regime. Sanctions complement--rather than replace--other 
diplomatic, economic, or military tools.
    Finally, there is often confusion between targeted financial or 
travel sanctions and the exclusion of rogue regimes from the 
international financial system. Some governments, like Cuba, have 
voluntarily opted out of the IMF, the World Bank, and other 
international financial institutions. Others, like Somalia or Eritrea, 
are unable to access finance from these organizations, not because of 
specific U.S. sanctions, but because of their own record of nonpayment.
    I'll conclude by outlining how these points matter for U.S policy 
toward Zimbabwe.
    The current legislation, the Zimbabwe Democracy and Economic 
Recovery Act of 2001 (ZDERA) states: ``It is the policy of the United 
States to support the people of Zimbabwe in their struggle to effect 
peaceful, democratic change, achieve broad-based and equitable economic 
growth, and restore the rule of law.'' ZDERA includes a sense of 
Congress that the President should implement travel and economic 
sanctions against individuals responsible for violence and the 
breakdown of the rule of law.
    First, U.S. sanctions have been a powerful signal of U.S. policy in 
support of democracy. When introduced, ZDERA attracted strong 
bipartisan support in Congress. The bill was co-sponsored by senators 
from across the political spectrum: Bill Frist, Jesse Helms, Russell 
Feingold, Joseph Biden, and Hillary Clinton. The actual executive 
branch sanctions advocated by ZDERA were not directed at the country as 
a whole, but aimed at specific individuals, barring them from holding 
assets in the United States, traveling here, and doing business with 
U.S. entities. As of 2016, none of the key conditions contained in the 
original ZDERA legislation--restoration of the rule of law, free and 
fair elections, and depoliticization of the security forces--have been 
met either in letter or in spirit. Thus, sanctions should remain in 
place on Zimbabwe for the time being.
    Second, U.S. policy objectives have not been achieved as the 
country has yet to experience peaceful democratic change, broad-based 
economic growth, or the restoration of the rule of law. But it is a 
mistake to judge the lack of progress as a failure of sanctions per se. 
Zimbabwe's morass continues primarily because of a highly entrenched 
abusive regime that has shown little regard for the basic welfare of 
its own citizens, combined with unhelpful regional dynamics.
    While recognizing the lack of progress, before removing sanctions, 
we must ask whether such a change will advance U.S. policy goals or 
play into the hands of the regime. It is true that the ruling cabal 
cynically blames sanctions rather than its own failures. But will 
eliminating a false excuse lead to a better outcome? More specifically, 
if sanctions are lifted, what happens next that helps the country on a 
path towards democracy? Is it credible to argue that removing U.S. 
sanctions at this time will change Zimbabwe's internal dynamics in a 
way that bolsters the forces for democracy, much less force Robert 
Mugabe to stand down? In my view, lifting U.S. sanctions at this time 
will merely strengthen Robert Mugabe and the military circle around him 
by providing a major propaganda victory. Mugabe will claim that the 
regime has vanquished the country's imaginary imperialist oppressors 
and has now received a formal American endorsement of his undemocratic 
rule.
    Third, sanctions could be much more effective in Zimbabwe if they 
were embedded in a broader strategy that included other tools of U.S. 
power. The United States has generally disengaged from Zimbabwe in 
recent years, leaving our policy little more than sanctions plus 
humanitarian assistance. A forward-leaning strategy could employ a 
range of support for democratic forces, more aggressive diplomacy, and 
utilize the sanctions list more creatively to selectively encourage 
positive behavior and increase U.S. influence in a post-Mugabe 
transition. This absolutely must include continuing to collect 
information on those who one day should face charges of war crimes and/
or embezzlement.
    Finally, the issue of targeted U.S. bilateral sanctions is separate 
from arrears clearance and access to new lending at international 
financial institutions like the IMF and World Bank. ZDERA calls for the 
United States to exercise its shareholder vote against debt relief or 
new loans to Zimbabwe until the stipulated conditions have been met. As 
the recent letter from Chairman Corker to Treasury Secretary Lew makes 
clear, it is premature for the United States to support any new lending 
to the Government of Zimbabwe, absent clear and meaningful reforms.\1\ 
Preconditions should include ensuring basic political freedoms, 
accountability for missing diamond revenues, and official 
acknowledgement of gross human rights violations committed by state 
agents, such as the Matabeleland massacres in the 1980s and, just 
fifteen months ago, the abduction and probable murder of human rights 
activist Itai Dzamara.
---------------------------------------------------------------------------
    \1\ ``No New Lending to Zimbabwe without Meaningful Reform,'' 
Letter from Senator Corker to Secretary Lew, January 29, 2016 http://
www.foreign.senate.gov/press/chair/release/corker-no-new-lending-to-
zimbabwe-without-meaningful-reform.
---------------------------------------------------------------------------
    Until the Government of Zimbabwe has met the ZDERA criteria and 
shown unequivocally that it is on an irreversible path to true reform, 
it is not yet time for the United States to abandon its targeted 
sanctions. In fact, the U.S. government should be preparing specific 
targets and options for further ratcheting up pressure, which could be 
deployed on a timely basis as needed. More broadly across Africa, 
sanctions will continue to be a practical and symbolic tool for U.S. 
policymakers, provided they are carefully targeted, deployed among a 
set of other policy tools, and not expected to serve as a substitute 
for other actions.


                               __________

                Prepared Statement of Brad Brooks-Rubin

    Chairman Flake, Ranking Member Markey, members of the subcommittee, 
I am grateful for the opportunity to testify on this critical yet often 
misunderstood element of U.S. foreign policy.
    When once asked his opinion of Western civilization, Mahatma Gandhi 
reportedly responded, ``I think it would be a good idea.''
    Men, women, and children across sub-Saharan Africa pay a price 
every day for the unchecked violence and resource theft committed by 
leaders who do not believe they will face real consequences for their 
actions. Sanctions have become the non-military tool of choice of the 
U.S. government to try to deliver those types of consequences across 
the globe, but sanctions in sub-Saharan Africa have thus far generally 
failed to achieve the desired impact. This is in large part because we 
repeatedly use the same types of tools. We do not target key decision 
makers and their international facilitators. We rarely follow up or 
enforce sanctions with further actions. We do not integrate sanctions 
with other tools designed to promote improved governance. And we do not 
sufficiently mitigate the negative consequences associated with 
sanctions. Quite simply, we do not approach sanctions with respect to 
sub-Saharan Africa the way we do other critical national security and 
foreign policy crises.
    So when asked my view of U.S. sanctions policy in sub-Saharan 
Africa in 2016, I would invoke Gandhi and say that it would be a good 
idea.
    As of today, at least with respect to addressing conflicts and 
violent kleptocracies across the continent, sanctions and financial 
pressure are under-leveraged. But these tools could have tremendous 
impact if they were used as they are in other contexts--and if 
sanctions are integrated with pressure toward good governance. This 
effort and the new ideas that can drive it need leadership and action 
from both the Executive Branch and Congress.
    It is not that we have neglected to use sanctions in sub-Saharan 
Africa, of course. In my experience, as a former attorney at the U.S. 
Treasury Department advising the Office of Foreign Assets Control 
(OFAC), and as an officer in the Economic Bureau of the State 
Department focused on natural resources and conflict, I have worked on 
many such sanctions efforts related to the continent. I have seen, when 
a crisis emerges, from Zimbabwe to the Democratic Republic of the Congo 
to South Sudan to Burundi, we almost immediately look in the sanctions 
toolbox. But despite the existence of good examples and incredible 
expertise within the interagency, we too often end up resigned to using 
the same necessary but insufficient tools: limited numbers of asset 
freezes, travel bans, and, on occasion, an arms embargo. These tools 
tend to be long on message and short on financial impact. When these 
sanctions measures are not flanked well by other efforts, they 
frequently fail.
    The understandable temptation, then, is to say that sanctions 
related to these countries and contexts just do not work.
    This is absolutely the wrong response. Sanctions can and do have 
beneficial impact when they are carefully designed and strongly 
enforced. The failure has not been with our choice to use sanctions. 
The failure thus far, which can be readily addressed for the future, is 
in the limited way in which we have viewed the problems and use 
sanctions as a tool with sub-Saharan Africa. We have not yet approached 
these countries with the serious economic lens they deserve, especially 
before situations become crises. As a result, we have thus far deployed 
only a limited selection of sanctions measures or approaches in sub-
Saharan Africa. We have not yet brought to sub-Saharan Africa the same 
sense of urgency to counter threats related to terrorism or drug 
trafficking. We have not yet brought to sub-Saharan Africa the same 
seriousness of purpose to advance peace, democracy, and human rights 
that we have brought to Iran, North Korea, and Burma.
    Today I will draw on my experience, offer a constructive critique 
of U.S. sanctions policy in the region, and present alternative 
approaches that would make these sanctions efforts much more impactful. 
We would want to do six critical things in order to deliver an 
effective and modernized sanctions approach in sub-Saharan Africa:


 1. Ensure that sanctions fit within a broader policy approach with 
        clear policy goals;

 2. Develop better intelligence and expertise on a broader set of 
        potential targets that ensure the actions we take will fulfill 
        the policy goals we are seeking to achieve and disrupt the 
        financial flows involved;

 3. Employ modern sanctions tools beyond targeted designations and 
        travel bans;

 4. Build on the actions we take and have the courage to double down at 
        key junctures rather than easing pressure;

 5. Prioritize civil and criminal enforcement actions under these 
        programs to prevent them from becoming empty gestures; and

 6. Take better steps to keep sanctions temporary and mitigate negative 
        impacts.


    To deploy this approach with the situations in South Sudan or the 
Democratic Republic of the Congo, for example, we would want take the 
following types of steps:


   Use the particular kinds of designation criteria that are designed 
        to deliver financial impact, such as for acts of public 
        corruption and looting of state assets, and go after much high-
        level targets overall;

   Keep the pressure on designated individuals and entities at key 
        junctures and enforce the sanctions we put forward;

   Employ sectoral and even secondary sanctions as needed to act 
        specifically on key economic vulnerabilities and pressure banks 
        to take these crises seriously;

   Push the Financial Crimes Enforcement Network (FinCEN) to look 
        beyond drugs and terrorism when acting against money laundering 
        on the continent, something it has never done;

   Develop public reporting requirements for private-sector actors, 
        particularly investors, in target countries, as used 
        effectively in Burma;

   Integrate sanctions more holistically with broader policy efforts 
        advancing good governance and responsible business; -Issue 
        strong messages against de-risking; and -Pass the Global 
        Magnitsky Human Rights Accountability Act and allocate to the 
        Department of the Treasury and other U.S. government agencies a 
        greater share of intelligence and investigative resources that 
        can be dedicated to sub-Saharan Africa.


    Actions like these would directly increase the impact of sanctions 
in sub-Saharan Africa.
             refocusing on the cost of violent kleptocracy
    Over the past 16 years, I have worked on sanctions issues not only 
at the Treasury and State departments, but also at a private law firm, 
a private sector organization, and now for a human rights NGO and 
investigative project. I have seen how sanctions can work and why they 
fail or fall short of having the full desired impact. And I have heard 
the full range of criticism and rationales concerning their use. But 
for those of us who spend a lot of time examining the technical aspects 
of how they work, we can too often forget why we are having the 
discussion in the first place.
    The human suffering caused by the violent conflicts and 
kleptocratic behaviors of brutal regimes is immense. Millions of people 
have been killed, injured, raped, or forced to flee their homes. Many 
are displaced within the region and now many are on the move to Europe 
and other areas. Instability reigns and violent extremism--with other 
threats to security--have increased. Generous international donors, 
including the U.S. government, with taxpayer money, send billions of 
dollars in direct aid, or provide funds for peacekeeping operations and 
development projects to support citizens in these countries and 
mitigate the effects of these disasters.
    Too often we underestimate or misunderstand the sources of 
violence, thinking of them simply as brutal conflicts between rival 
ethnic groups or strongmen seeking power. At the Enough Project, we 
analyze five countries--Sudan, South Sudan, the Democratic Republic of 
the Congo (DRC), the Central African Republic, and Somalia--through the 
lens of what we call ``violent kleptocracy.'' We view these violent 
kleptocracies as systems in which those in power and their networks of 
facilitators and enablers engage in grand corruption and foment 
violence. The state is completely hijacked to these purposes. And there 
is little to no meaningful governance or public service provision to 
benefit the people. Violence and mass corruption are not aberrations of 
the system; they are the system itself. The particular structure, 
actors, and specific means of implementing violent kleptocracy may 
differ between countries, but they all feature these hallmarks, as do 
many others on the continent.
    The Enough Project is analyzing these systems as violent 
kleptocracies and examining how these systems depend on the 
international financial system, particularly the U.S. dollar. As the 
Panama Papers' revelations and the work of our investigative initiative 
The Sentry investigations show, the networks involved are using many of 
the same types of transactions that narco-traffickers, terrorist 
networks, and corrupt regimes in other parts of the world are using, 
and against which we have deployed the full array of tools of financial 
pressure. The violent kleptocracies in Africa all come back to money, 
and as a result, we have the power to use sanctions and other tools to 
disrupt them.
    Despite the similarities with other national security concerns, 
these regimes and their networks have hardly faced any costs or 
pressure. For example, despite the constant discussion of corruption in 
Africa through money laundering, our agency within Treasury dedicated 
to fighting money laundering and which has an enormous suite of tools, 
the Financial Crimes Enforcement Network (FinCEN), has only ever acted 
against issues in sub-Saharan Africa that relate to drugs or terrorism. 
It is time that we show that we are willing to address the suffering of 
tens of millions of people in sub-Saharan Africa and the instability 
and security threats that result, with the same resolve we use to 
address other crises.
            six questions to frame african sanctions actions
    Considering the enormous human cost, increasing threats to national 
security, and billions of aid dollars being spent, we need to approach 
conflict and violent kleptocracy in sub-Saharan Africa with something 
approaching the prioritization that we see for other crises. Contrary 
to the assumption of some who view these as ``off the grid'' conflicts, 
the violent kleptocratic systems that generate these conflicts depend 
on the international financial architecture and the U.S. dollar to 
thrive. We have failed thus far to use this important leverage to 
advance peace and human rights the way we do in other situations.
    Why? To start, we often fail to ask the basic questions that lead 
to effective sanctions action.
1. What is the policy goal?
    Sanctions actions are only effective if they are integrated as one 
tool within a comprehensive foreign policy strategy. Sanctions are best 
used as a means of financial pressure that is designed to work with 
other measures to prompt a process that can be the catalyst to change 
behavior. There must be a foreign policy process to pick up what the 
sanctions begin and move it forward, rather than expect the sanctions 
to do it all. Regardless of your particular view on the result of the 
negotiation processes involved, this is what sanctions in Iran and to 
some extent Burma were able to achieve. These steps have thus far been 
too often lacking in sub-Saharan Africa.
    As noted sanctions expert and researcher Gary Huffbauer has 
explained, ``history has indeed shown that sanctions have limited 
success when the goal is fundamental change in the core policy of an 
autocratic regime.'' Huffbauer is correct that sanctions alone are not 
a panacea. Sanctions cannot become a replacement for the comprehensive 
policy strategies that are needed and that use leverage and 
accountability along with other policies to promote good governance and 
the protection of civil society and the media needed for peace. 
Sanctions can be used strongly to prompt certain responses from a 
regime or a target, but they should not be the automatic first choice 
unless they are integrated with other measures.
2. What intelligence--and financial intelligence--do we have?
    In a recent address on the key lessons in making sanctions more 
effective, Secretary of the Treasury Jack Lew noted, ``Powerful 
sanctions require investigators and analysts to track how key actors 
move and store their money and to build detailed cases drawing on 
intelligence analysis.'' This assessment from Secretary Lew is borne 
out by a recent study from the Center for New American Security, 
showing that sanctions rarely deliver immediate economic losses but do 
result in instability and elevated risk. That means that sanctions 
often do not directly cause change; instead, they create the 
opportunity for change if it is properly leveraged.
    Simply stated, we have not yet devoted the investigative and 
analytic resources to sub-Saharan African issues that Secretary Lew 
himself says we need in order to make these efforts more effective. 
Time and time again, I have seen this administration and the previous 
one search for usable information too late and then be unable to 
identify strategically how best to use it. Worse, the information 
sought is not aimed at the financial side, targets with bank accounts, 
assets, and networks, but too often rests on individuals where we have 
nothing more to find or achieve than messaging opportunities. There are 
simply an insufficient number of intelligence analysts in the Treasury 
department or across the interagency to focus on Africa effectively at 
the present time.
    In the same speech, Secretary Lew said, ``We must guard against the 
impulse to reach for sanctions too lightly or in situations where they 
will have negligible impact.'' Without proper intelligence gathering to 
identify targets we can impact and a comprehensive description of the 
process we want to achieve, we will only equip ourselves with sanctions 
that are able to have a negligible impact at best.
3. What tools do we use?
    Once the administration does decide to deploy sanctions, too often 
there are just three tools involved: targeted asset freezes, travel 
bans, and in some cases, arms embargoes. These tools are all necessary, 
but they are not sufficient.
    Noted sanctions expert Gary Huffbauer's research has consistently 
found that financial sanctions are more effective than trade sanctions, 
and I would include arms embargoes in the latter category. But 
financial sanctions must be broader than simply the designation of a 
few individuals. Huffbauer noted in an essay back in 2000 that 
``Targeted sanctions may satisfy the need . . . to `do something,' they 
may slake humanitarian concerns, and they may serve to unify fraying 
coalitions. But they are not a magic bullet for achieving foreign 
policy goals.'' That assessment remains true in 2016.
    Targeted sanctions remain essential, but we must be willing to use 
financial pressures that go beyond a few designations of low-level 
targets. In a recent report, Enough Project Founding Director John 
Prendergast and I outlined several types of ``modernized'' measures 
that could be used to make sanctions more effective in Sudan. These 
measures include engagement with banks and possible secondary 
sanctions, sectoral sanctions, anti-money laundering tools, and 
sanctions measures more focused on corruption issues. Sadly we see 
little to no willingness to consider these kinds of tools with Sudan, 
or anywhere else in sub-Saharan Africa. There is too heavy a reliance 
on a narrow set of targeted measures as the magic bullet Huffbauer 
described. Again, FinCEN has never taken an action directed at sub-
Saharan Africa to target money laundering issues beyond connections to 
global narcotics or terror networks.
4. When do we take follow-up steps?
    When targeted financial sanctions and travel bans are deployed, we 
often start with an initial approach and promise follow-up measures. 
But the follow-up steps rarely come, and, at key moments when 
additional leverage could play a key role, we instead ease pressure.
    We can look to South Sudan as a perfect example. After 18 months of 
brutal and horrific violence, the U.S. implemented in mid-2015 only the 
targeted sanctions, focused on mid-level commanders that could get 
through the veto threats of Russia, China, Angola, and others on the 
U.N. Security Council. Follow-up was promised. Yet even after the delay 
and one obstacle after another in implementing the peace agreement, 
with further violence and destruction of the country, the 
administration has found one reason after another not to act. Earlier 
this year, Enough saw strong interest from the administration in acting 
and was pleased to provide the results of investigations by The Sentry, 
including information that identified specific targets for action. 
Instead of acting to demonstrate the need for the parties to focus 
seriously on implementing the peace agreement, the administration has 
eased off, implying that any further pressure could cause further 
destabilization. The same approach marked our response to the elections 
in the Central African Republic, where pressure to ensure 
accountability and good governance eased following the recent 
elections.
    Yet at key moments in other negotiations and processes, the U.S. 
has been successful when it was willing to take a strong sanctions step 
to show resolve and seriousness. Days before or after at least three 
key junctures in the Iran nuclear negotiation process, including in 
February 2014 when the first real talks began, the United States showed 
its resolve by taking strong new sanctions actions. Press releases from 
Treasury said clearly we believed that more accountability was 
necessary to reach the desired negotiated end. That same resolve and 
commitment to accountability is necessary in Africa as well.
5. How do we enforce?
    Secretary Lew noted in his recent speech that powerful sanctions 
also ``rely on enforcement officers to investigate violations and levy 
penalties for significant wrongdoing.'' Indeed, in order to be 
effective, sanctions cannot amount to empty rhetoric and messages. In 
sub-Saharan Africa programs, unfortunately that has been the norm.
    In the last five years, there have been few enforcement actions 
taken by OFAC implementing programs related to sub-Saharan Africa, and 
almost no enforcement actions taken by the U.N. Security Council or 
U.N. member states. What we do see are enforcement actions focused 
principally on other sanctions programs, particularly Iran, having an 
impact in sub-Saharan Africa. Sudan, in particular, is now preoccupied 
with the removal of sanctions because of the shock its banking sector 
experienced as a result of the mega-settlement against BNP Paribas, 
which included Sudan-related violations but, like other cases against 
big banks, was principally focused on Iran. The U.S. Department of the 
Treasury took an important step this past February, by acting against 
Barclay's Bank for failing to take necessary due diligence when 
implementing Zimbabwe sanctions. We need to ensure that all of the 
sanctions programs are more consistently enforced.
    Enforcement is necessary because, even if we are missing out on the 
most important targets, violations occur. For example, two of the 
sanctioned mid-level South Sudanese commanders maintained U.S. dollar-
denominated accounts at Kenya Commercial Bank and traveled openly to 
major international hotels in the region for months after being 
sanctioned, with little to no action taken.
    Enforcing sanctions properly not only means ensuring that both U.S. 
and foreign authorities are fulfilling their obligations. The State 
Department and the Treasury Department often need to follow up with 
outreach to foreign authorities and counterparts to support more 
consistent enforcement. Our research indicates, for example, that the 
Kenyan government does not appear to have taken the same public 
measures to ensure implementation of U.N. sanctions on South Sudan by 
its private sector as it has for other sanctions programs. Consistency 
of capacity and political will is critical to proper enforcement.
6. How do we ensure that sanctions are treated as temporary measures, 
        and unintended consequences are mitigated?
    Secretary Lew noted in his speech ``sanctions are not meant to dole 
out punishment for past actions. They are forward-looking, intended to 
keep illicit or dangerous conduct out of our system and create pressure 
to change future behavior.'' Sanctions are meant to be temporary tools 
that create a process to change behavior. In many cases, these measures 
last for decades and become quasi-punitive measures. It can be nearly 
impossible for targets to be removed from designations list, and clear 
explanations of how they work and what their connection is to 
underlying policy may be lacking. This provides sanctions targets with 
less incentive to change than in a program where they can see a clear 
improvement and tangible step if they take expected actions.
    When sanctions are treated or viewed as replacements for punitive 
criminal measures, it can undermine the message of sanctions and the 
long-term beneficial impacts while allowing the targets of sanctions to 
generate propaganda that benefits their image. Just weeks after 
Barclay's Bank received the aforementioned penalty, the bank announced 
it would close all of its African operations because the risk was too 
great. To be sure, the most important factor Barclay's Bank cited for 
this was the risky and corrupt business environment that exists in too 
many countries on the continent. But the potential for ``over-
compliance'' approaches by businesses for which it is simply easier to 
cut off whole countries or regions, rather than manage compliance with 
sanctions against a few dozen individuals, is substantial.
    My portfolio at Treasury included the Cote d'Ivoire sanctions, and 
I once received a call from a compliance officer who proudly told me 
that his company was no longer doing business in the country. At the 
time, there were three people designated. In the entire country. When I 
replied that the company's action may have been unnecessary and that 
there were more people in Chicago on the sanctions list than in Cote 
d'Ivoire, there was an uncomfortable silence.
    When sanctions measures are expected from the outset to last for 
many years and are not properly understood, they can feel like more 
comprehensive types of measures. Regimes from Sudan to Zimbabwe have 
blamed sanctions for all manner of economic problems, many of which 
have nothing to do with sanctions at all but instead result from the 
authoritarian leaders within these regimes and the catastrophic 
economic decisions that they have made. But when we fail to explain how 
the sanctions work and show that they can evolve and be nimble over 
time, rather than become permanent forms of punishment, we give the 
likes of Bashir and Mugabe easy wins.
     answering these questions with a modernized sanctions approach
    These six questions are relatively straightforward. We answer them 
clearly and plainly in other contexts, but not in sub-Saharan Africa. 
The simple fact is that we can do so much to modernize our sanctions 
approach for greater impact. But we need to choose sanctions and other 
financial pressures that will have the greatest economic impact on the 
particular networks in the area we're targeting. We need to look beyond 
the pressure measures to the broader foreign policy goals and 
diplomatic engagement that promote good governance. And we must do more 
to mitigate different types of unintended consequences.
    First and foremost, we must focus on using the types of sanctions 
and financial pressures that can make a direct economic impact on the 
kleptocratic networks of perpetrators, enablers, and facilitators, when 
we have the information needed. These include making sure we:


   Use more effective targeted designation language and identify 
        higher-level targets that result in sanctions designations with 
        financial impact.

   Consider the applicability of language used in the recent Libya 
        Executive Order--``actions that may lead to or result in the 
        misappropriation of state assets of Libya'' or ``threatening or 
        coercing Libyan state financial institutions or the Libyan 
        National Oil Company''--for countries like Congo and South 
        Sudan, where leaders and their networks routinely engage in 
        contract or procurement fraud and the outright theft of funds. 
        Our Sentry investigations in both of these countries show these 
        patterns and the types of activities and accounts involved, and 
        we intend to continue to provide this information to relevant 
        authorities. It is time for action to be taken that would 
        finally impose a cost on this behavior that have enabled 
        officials to divert billions of dollars across the region with 
        essentially no consequences. Even without language like that in 
        the Libya Executive Order, the United States must focus on 
        higher-level targets who have tangible financial assets and 
        decision-making authority. This should include the key leaders 
        in South Sudan and the elites surrounding Congolese President 
        Joseph Kabila. This is why we strongly support S. Res 479, 
        introduced by Senators Markey, Durbin, and Murphy, which calls 
        for targeted sanctions on President Kabila's inner circle in 
        concert with efforts to see elections held as constitutionally 
        mandated.

   Empower Treasury and State officials to turn up the pressure on 
        banks, insurance companies, and other financial institutions to 
        know their customers and stop turning a blind eye to doing 
        business with kleptocratic regimes on the continent.

   Seriously consider the potential ways to apply secondary sanctions. 
        In the Iran context, the use of secondary sanctions, which in 
        essence allows enforcement of certain U.S. sanctions against 
        non-U.S. persons, proved quite impactful. Secretary Lew used 
        strong words of caution about future deployment of secondary 
        sanctions, but Treasury and State may be able to achieve the 
        same goals simply by raising these concerns with banks in 
        Kenya, Uganda, and South Africa. Identifying the problematic 
        transactions or accounts will likely be sufficient, but we need 
        to actually do it. For a country like Sudan, which has 
        developed a sophisticated banking network to counter long-term 
        U.S. sanctions, we believe limited use of secondary sanctions 
        would be appropriate.

   Identify countries where the sectoral sanctions approach that was 
        developed for Russia/Ukraine and expanded for North Korea could 
        work. For example, as South Sudan turns to develop the mining 
        sector as a new source of revenue, sectoral measures could be 
        considered in the future if necessary to ensure that new 
        investments are free from corruption and licensing fraud. The 
        officials responsible for the development of this sector raise 
        concerns about the potential for misuse, based on information 
        in previous U.N., African Union, and other reports... Use of 
        sectoral sanctions could provide a powerful mechanism to ensure 
        that new investments are undertaken in a limited manner and 
        cannot be misused.

   Push FinCEN to devote resources to evaluating how its authorities 
        could impact sub-Saharan Africa beyond drugs and terror. In 
        both South Sudan and Congo, there are strong opportunities for 
        FinCEN to use its power to issue advisories and conduct 
        investigations through Section 314 of the U.S.A. Patriot Act to 
        learn more and identify the key money laundering nodes. Once 
        identified, FinCEN should follow up and use Section 311, and 
        can look to one of the five special measures that provision 
        includes short of primary laundering concern designation. The 
        other four special measures would require greater due diligence 
        and information-sharing among financial institutions and law 
        enforcement. Greater information-sharing would enable FinCEN 
        and other financial intelligence units around the world to 
        develop more specific typologies and analyses that can better 
        target the way these officials launder the proceeds of 
        corruption, or use natural resource sectors such as gold and 
        oil to launder funds. These special measures may enable the 
        development of information critical to law enforcement for use 
        in overseas corruption investigations and prosecutions. 
        FinCEN's work over many years related to the way narco-
        traffickers, oligarchs, and others who launder money through 
        real estate led to an important step last January through a 
        Geographic Targeting Order focused on properties purchased in 
        New York and Miami. This kind of investigation and analysis can 
        lead to similar strong steps related to money laundering out of 
        sub-Saharan Africa, particularly from South Sudan and Congo.

   Promote financial and private sector transparency. The Burma 
        Responsible Investment Reporting Requirements have served as 
        one of the most innovative measures with sanctions in recent 
        years. In exchange for generally licensing new investment in 
        Burma, Treasury required those investing above certain levels 
        in Burma to report publicly on their activities, including 
        their steps to address human rights and environmental concerns, 
        as well as their engagement with potentially corrupt officials.
          This type of reporting model has proved quite effective, with 
        both advocates and the private sector recognizing the benefit 
        of publicly available reporting on a government website as a 
        way of sharing experience and avoiding suspicion. The model 
        could be greatly expanded within the sub-Saharan context. These 
        measures could not only be implemented in conjunction with 
        general licensing that allows for new activity, but also be 
        adapted to serve as a replacement for potentially sensitive 
        sectoral sanctions. For example, this type of reporting 
        requirement could likely be used within existing sanctions 
        authorities on Congo, specifically in connection with new 
        investment in the natural resources sector, as a way of 
        ensuring that there are no concerns with illicit trade.

   Swiftly pass the Global Magnitsky Human Rights Accountability Act. 
        This legislation, which has bipartisan support in both the 
        House and the Senate will bolster the U.S. government's 
        infrastructure to take action against those who commit human 
        rights abuses or are complicit in acts corruption. There is no 
        reason that this bi-partisan and bi-cameral legislation cannot 
        pass Congress before the summer recess.

   Allocate substantial new resources from Congress to the agencies 
        most responsible for investigating and enforcing U.S. sanctions 
        regimes in sub-Saharan Africa. In order to advance these and 
        other tools, Treasury needs the new Congress to provide 
        financial allocations across the board, with clear restrictions 
        to ensure new full-time employees focus on sub-Saharan Africa. 
        Congress should use the appropriations process to ensure that 
        these offices have increased resources, and can use report 
        language to send a message to Treasury that this region of the 
        world is a critical part of its efforts. For OFAC, this would 
        include new resources for global targeting, enforcement, 
        licensing, and for personnel to develop stronger collaboration 
        with FinCEN and other elements of Treasury. FinCEN, too, should 
        receive new resources for its office of special measures, as 
        well as its global liaison and intelligence units. Finally, 
        additional staff focused on Africa should be added within the 
        coordinating Office of Terrorist Financing and Financial Crimes 
        to ensure sufficient senior level attention. Skeptics on the 
        use of sanctions in Africa point to the bandwidth problem, 
        which can and should be addressed with more resources.


    Most observers, including Secretary Lew, have emphasized how much 
more effective sanctions are when they are multilateral. This is 
undoubtedly true in the end, but it rarely exists at the beginning. The 
broad coalition the United States assembled over years of outreach and 
pressure related to Iran proved essential to forcing Iran to the 
negotiating table. But nothing like that coalition existed in the years 
before. It took tremendous commitment and action from multiple 
presidential administrations and congressional sessions to achieve this 
outcome.
    We are fully aware of the panoply of U.S. security concerns and 
interests, and we are sanguine about where sub-Saharan Africa tends to 
rank. The point, however, is that while our sanctions approach to the 
region need not rise to the level of Iran in order to be effective, it 
still needs to rise. So we must be determined and committed and, even 
where it is difficult, we must deliver a strong message to our partners 
and seek to build coalitions over the long-term through leadership.
    Second, for these sanctions and financial pressures to be 
successful, a range of steps can be taken to develop the broader set of 
tools that complement them:


   Build on the commitments made to the recent U.K. Anti-Corruption 
        Summit. Last month in London, a number of countries committed 
        to measures that would expand beneficial ownership due 
        diligence requirements, enhance public access to business 
        registries, and counter corruption. Enabling broader access to 
        information on companies can enhance intelligence-gathering for 
        the U.S. government and non-governmental watchdogs, as well as 
        enable banks to more publicly demonstrate the steps they are 
        taking to conduct due diligence. The United States should also 
        incorporate into diplomatic messaging the need for progress on 
        the commitments made by countries like Kenya and South Africa.

   Enhance the responsible business agenda. The Obama administration's 
        National Action Plan on Responsible Business Conduct could mark 
        an important addition to the broader policy landscape. With a 
        National Action Plan that emphasizes the need for stronger 
        human rights due diligence by business, including banks, 
        through engagement and risk mitigation, the private sector may 
        be able to take steps that complement the goal of sanctions 
        well.

   Focus on stronger implementation from the Extractive Industries 
        Transparency Initiative and other transparency, development, 
        and quasi-regulatory bodies. Transparency and accountability, 
        including through the Open Government Partnership, Open 
        Contracting Partnership, EITI, and even steps like Sustainable 
        Development Goal 16 (Peace, justice and strong institutions) 
        can deliver important progress on good governance that 
        integrates well with the aims of effective sanctions.

   Encourage civil society and media protection, including stronger 
        promotion of the World Bank's Global Partnership for Social 
        Accountability, which provides for capacity building for these 
        critical components of society working against grand 
        corruption.


    Third and finally, the U.S. government must always look to guard 
against unintended consequences. Sanctions measures can result in harm, 
and we cannot entirely shy away from them. But the administration can 
take at least the following measures:


   Issue strong messages on de-risking. There have been no magic wands 
        to balance derisking with financial inclusion in any context in 
        which it has emerged; the issues are too complex and multi-
        layered for easy approaches, as the Barclay's Bank example 
        demonstrated. One measure that can have a positive impact as a 
        first step is clear messaging on the focal areas of risk, and 
        where engagement would be encouraged. Too often, the U.S. 
        government simply fails to clearly and thoroughly explain what 
        the sanctions are, and are not, for fear of over-simplifying or 
        encouraging business it does not want to encourage. Where that 
        vacuum exists, propaganda from the targets will usually fill in 
        the gaps with misinformation.
          Where this messaging is unsuccessful, Treasury should 
        investigate further the potential of ``non-enforcement'' 
        approaches for banking services related to certain categories 
        of transactions, such as those for international and non-
        governmental organizations. We should always remember, however, 
        that most of these countries remain very risky jurisdictions 
        for financial institutions, with limited reward in terms of 
        scale of the markets.
          Even if all sanctions were removed on sub-Saharan Africa 
        overnight, this would still be the case, so until the market is 
        a safer and less corrupt place to do business, there is only so 
        much that the United States can, or arguably should, do.

   Clarify sanctions targeting. One of the most difficult areas for 
        the private sector to manage is understanding the extent of a 
        target's network. Because the Treasury Department considers any 
        entity that is 50 percent owned or controlled by a sanctioned 
        entity to also be sanctioned, even if not specifically named as 
        such, compliance can be daunting if information provided is not 
        complete and updated. This challenge is particularly acute for 
        Sudan, where the comprehensive blocking of the government of 
        Sudan means any entity owned or controlled by the Omar al-
        Bashir regime is considered sanctioned. Yet the last public 
        additions to the list happened more than nine years ago, with 
        only a few removals since that time. Clear information about 
        which parties are and are not subject to sanctions designations 
        can help mitigate many unintended and unnecessary consequences 
        for sanctions.


    Chairman Flake, Ranking Member Markey, members of the subcommittee, 
sanctions are a critical component to our foreign policy toolbox in 
many contexts, but thus far they have not been used to their full 
potential with sub-Saharan Africa. They can play an even more critical 
role in shaping the future of the U.S. response to violent 
kleptocracies, conflicts, and other crises on the continent. But our 
approach needs to change if we are to use these tools most effectively.


                                  <all>
</pre></body></html>
